<html>
<title> - CIVILIAN CONTROL OF THE ARMED FORCES</title>
<body><pre>[Senate Hearing 115-166]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-166

                  CIVILIAN CONTROL OF THE ARMED FORCES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 10, 2017

                               __________

         Printed for the use of the Committee on Armed Services
         
         
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
         


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
                                __________
                                      
                           

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-836 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6a1b6a986a5b3b5b2aea3aab6e8a5a9abe8">[email&#160;protected]</a> 	

                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman	JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma		BILL NELSON, Florida
ROGER F. WICKER, Mississippi		CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska			JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas			KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota		RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa			JOE DONNELLY, Indiana
THOM TILLIS, North Carolina		MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska			TIM KAINE, Virginia
DAVID PERDUE, Georgia			ANGUS S. KING, JR., Maine
TED CRUZ, Texas				MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina		ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska			GARY C. PETERS, Michigan
LUTHER STRANGE, Alabama                                                
Christian D. Brose, Staff Director
Elizabeth L. King, Minority Staff 
             Director

                                  (ii)

  


                         C O N T E N T S

_________________________________________________________________

                            January 10, 2017

                                                                   Page

Civilian Control of the Armed Forces.............................     1

Hicks, Kathleen H., Senior Vice President; Henry A. Kissinger,        5
  Chair; Director, International Security Program, Center for 
  Strategic and International Studies.
Cohen, Eliot A., Robert E. Osgood, Professor of Strategic            10
  Studies, Johns Hopkins School of Advanced International 
  Studies.

                                 (iii)

 
                  CIVILIAN CONTROL OF THE ARMED FORCES

                              ----------                              


                       TUESDAY, JANUARY 10, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:29 a.m. in Room 
SH-216, Hart Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Sullivan, Perdue, Reed, Nelson, 
Shaheen, Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, King, 
Heinrich, Warren, and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. The committee meets this morning to 
receive testimony on civilian control of the Armed Forces.
    I'd like to welcome our witnesses: Dr. Eliot Cohen, Robert 
E. Osgood Professor of Strategic Studies at the Johns Hopkins 
School of Advanced International Studies--that's very 
impressive; Dr. Kathleen Hicks, also impressive, Senior Vice 
President, Kissinger Chair and Director of the International 
Security Program at the Center for Strategic and International 
Studies. Welcome.
    Civilian control of the Armed Forces has been a bedrock 
principle of American government since our Revolution. A 
painting hanging in the Capitol Rotunda celebrates the legacy 
of George Washington, who voluntarily resigned his commission 
as Commander of the Continental Army to the Congress. This 
principle is enshrined in our Constitution, which divides 
control of the Armed Forces among the President, as Commander 
in Chief, and the Congress as coequal branches of government. 
Since then, Congress has adopted various provisions separating 
military and civilian positions.
    In the 19th century, for example, Congress prohibited an 
Army officer from accepting a civil office. More recently, in 
the National Security Act of 1947 and subsequent revisions, 
Congress has prohibited any individual from serving as 
Secretary of Defense within seven years of Active Duty service 
as a commissioned officer in the Armed Forces. Of course, it 
was only three years later, in 1950, that Congress granted 
General George Marshall an exemption to that law and the Senate 
confirmed him to be Secretary of Defense.
    Indeed, the separation between civilian and military 
positions has not always been so clear. Twelve of our Nation's 
Presidents previously served as generals in the Armed Forces. 
Over the years, numerous high-ranking civilian officials in the 
Department of Defense have had long careers in military 
service. Our current Deputy Secretary of Defense, for example, 
served 27 years in the United States Marine Corps.
    The basic responsibilities of civilian and military leaders 
are simple enough: for civilian leaders, to seek the best 
professional military advice while under no obligation to 
follow it; for military leaders, to provide candid counsel 
while recognizing civilians have the final say or, as James 
Mattis once observed, to insist on being heard and never insist 
on being obeyed.
    But, the fact is that the relationship between civilian and 
military leaders is inherently and endlessly complex. It is a 
relationship of unequals who nonetheless share responsibility 
for the defense of the Nation. The stakes could not be higher. 
The gaps in mutual understandings are sometimes wide, 
personalities often clash, and the unique features of the 
profession of arms and the peculiarities of service cultures 
often prove daunting for civilians who never served in uniform.
    Ultimately, the key to healthy civil-military relations and 
civilian control of the military is the oath soldiers and 
statesmen share in common, to protect and defend the 
Constitution. It is about the trust they have in one another to 
perform their respective duties in accordance with our 
republican system of government. It is about the candid 
exchange of views engendered by that trust and which is vital 
to effective decisionmaking. It is about mutual respect and 
understanding.
    The proper balance in civil-military relations is difficult 
to achieve, and, as history has taught us, achieving that 
balance requires different leaders at different times. The 
President-elect has announced his intention to nominate James 
Mattis to be our next Secretary of Defense. In light of his 
recent military experience, his nomination will require 
Congress to pass legislation providing a one-time exception 
allowing him to serve as Secretary, legislation this committee 
plans to consider this Thursday. The members of this committee 
will have to reach their own conclusion, but, as for me, I will 
fully support that legislation and Mr. Mattis's--and General 
Mattis's nomination. There is no military officer I have met in 
my lifetime with a deeper understanding of civil-military 
relations than James Mattis. He even co-edited a book on the 
subject. He has upheld the principle of civilian controlling 
the Armed Forces in four decades of military service, as well 
as in civilian life. His character, judgment, and commitment to 
defending our Nation and its Constitution have earned him the 
trust of our next Commander in Chief, Members of Congress on 
both sides of the aisle, and so many serving in our Armed 
Forces. In short, I believe James Mattis is an exceptional 
public servant worthy of exceptional consideration.
    The committee is fortunate to have with us two of the 
foremost scholars on civil-military relations, both of whom 
have a record of distinguished government service. I'm eager to 
hear their views on this important subject. I'd like to add, it 
was the Ranking Member, Senator Reed's request and legitimate 
concern about this issue that we are having this hearing. I 
want to thank my friend, the Ranking Member, for making sure 
that this hearing is held.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman, for 
holding this hearing, because I do think, as you have indicated 
so well, how critical this issue is to the country.
    Also let me welcome our distinguished witnesses, Dr. Eliot 
Cohen and Dr. Kathleen Hicks. Thank you very much for your 
scholarship and your service to the Nation.
    Civilian control of the military is enshrined in our 
Constitution and dates back to General George Washington and 
the Revolutionary War. For almost 230 years, this principle has 
distinguished our Nation from many other countries around the 
world, and it has helped ensure that our democracy remains in 
the hands of the people.
    When the Department of Defense was created by the National 
Security Act of 1947, the law included a stipulation that an 
individual appointed to serve as the Secretary of this new 
agency could not be within ten years of Active Duty as a 
commissioned officer in a regular component of the Armed 
Services. However, an exception to this statute was enacted 
into law shortly thereafter, in 1950, to permit George Marshall 
to serve as Secretary of Defense shortly after he concluded his 
service as Secretary of State. It then stood untouched for 
nearly six decades, until the Fiscal Year 2008 National Defense 
Authorization Act modified the requirement by reducing the 
integral from ten years to seven years. But, the principle was 
very clear, and still was sustained.
    This requirement has served our Nation well for the past 70 
years, and only once has Congress waived or modified this 
statute. For only the second time since the creation of the 
Department of Defense, Congress must make a determination if an 
exception should be made to allow recently retired General 
James Mattis to serve as the Secretary of Defense. As this 
committee considers legislation to provide an exception to 
General Mattis, I believe that it is extremely important that 
we carefully consider the consequences of setting aside the law 
and the implications such a decision may have on the future of 
civilian and military relations. We must always be very 
cautious about any actions that may inadvertently politicize 
our Armed Forces.
    During this past presidential election cycle, both 
Democrats and Republicans came dangerously close to 
compromising the nonpartisan nature of our military when the 
nominating conventions featured speeches from recently retired 
general officers advocating for a candidate for President. As 
former Chairman of the Joint Chiefs of Staff, General Martin 
Dempsey, stated shortly after the conventions, ``If senior 
military leaders, active and retired, begin to self-identify as 
members or supporters of one party or another, then the 
inherent tension built into our system of government between 
the executive branch and the legislative branch will bleed over 
into suspicion of military leaders by Congress and a further 
erosion of civilian-military relations.'' I hope our witnesses 
today will speak to the issue and share any reflections they 
may have.
    Another issue we should consider is whether the total 
number of retired senior military officers selected for high-
ranking positions in the Trump administration will impact the 
dynamic of the interagency process and the advice that the 
President receives. It is true that, throughout our history, 
retired general officers have often held positions at the 
highest levels of government as civilians. One notable example 
is General Colin Powell, when he ably served as Secretary of 
State under President George W. Bush.
    What concerns me, however, is the number of retired senior 
military officers chosen to lead agencies critical to our 
national security and the cumulative effect it may have on our 
overall national security policy. In addition to General 
Mattis, General John Kelly has been nominated to lead the 
Department of Homeland Security, while General Michael Flynn 
will serve as the National Security Advisor, both of whom, like 
General Mattis, have retired from Active Duty service in the 
past few years.
    While he is not a civilian and remains on Active Duty, if 
we include the Chairman of the Joint Chiefs of Staff, General 
Joseph Dunford, the leadership of our national security 
apparatus would be comprised of two retired four-star generals, 
one Active Duty four-star general, and one retired three-star 
general.
    Now, diversity of opinion is important when crafting policy 
and making decisions as weighty as those facing the next 
administration. I think it is appropriate for the committee to 
consider the consequences that so many leaders with similar 
military backgrounds will have for the development of defense 
policy, the impact it could have on the civilian and military 
personnel serving in these organizations, and how it may shape 
the advice that will ultimately be provided to the President of 
the United States.
    Finally, if Congress provides an exception for General 
Mattis, a question this committee must address is the precedent 
this action sets for such waivers in the future. The 
restriction was enacted into law for good reason. General 
George Marshall is the only retired military officer to receive 
this exception. I hope our witnesses will provide their 
assessment of this issue and if they believe providing an 
exception at this time opens the door to more waivers in the 
future. I personally believe such waivers would destroy the 
principle that is so critical to the central tenet of our 
civil-military relations. Congress is in a position where they 
are making a critical decision, and your advice would be deeply 
appreciated on this point, particularly.
    I want to make it clear that I--concerns I've expressed are 
not a reflection on the personal attributes of General Mattis. 
General Mattis will testify before this committee later this 
week. I look forward to having a robust discussion on his 
record as well as his views on defense strategy and policy.
    Additionally, it is not my belief that previous military 
service is a disqualifying factor for leading the Department of 
Defense. Nothing could be further from the truth. Many former 
members of the Armed Forces have served their country with 
distinctions as civilians after leaving the military service. 
One only has to look at many of my colleagues on this committee 
to appreciate how their prior military service has positively 
impacted their work in the Senate, and those who have served 
know better than most the sacrifices required to defend our 
Nation, including full-weighting consequences of making the 
decision to send our men and women in uniform into harm's way.
    What this hearing is about is the principle of civilian 
control of the Armed Forces, the bedrock of civilian-military 
relations and one of the defining tenets of our democracy. We 
must protect against it being compromised or weakened. Any 
changes or waivers must be cautiously and carefully considered.
    Again, I want to thank the Chairman for holding this 
hearing so that we can do just that. I look forward to the 
testimony of the witnesses.
    Thank you, Mr. Chairman.
    Chairman McCain. Thank you.
    Welcome, Dr. Hicks.

 STATEMENT KATHLEEN H. HICKS, SENIOR VICE PRESIDENT; HENRY A. 
  KISSINGER CHAIR; DIRECTOR, INTERNATIONAL SECURITY PROGRAM, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Hicks. Thank you, Chairman McCain, Ranking Member Reed, 
and distinguished members of the committee, for the invitation 
to appear before you today. Thank you also for taking the time 
to consider civilian control of the Armed Forces as it pertains 
to the nomination of James N. Mattis, U.S. Marine Corps, 
Retired, as Secretary of Defense.
    The issue before you today regarding a possible exception 
to the limitation against appointment of persons within seven 
years of relief from Active Duty as a regular commissioned 
officer is one that has caused significant discussion within 
the national security community. We are blessed in the United 
States with a strong civil-military relations history. Tensions 
do exist, however, and we should never take for granted that 
civilian control of the military, nor healthy civil-military 
relations more generally, are a foregone conclusion for the 
Republic.
    Congress's passage of the limitation on previously 
commissioned officers serving as Secretary of Defense within 
ten years of the cessation of their service, subsequently 
amended to seven years, has been one of the primary means 
employed to maintain civilian control. The Defense Secretary 
position is unique in our system. Other than the President 
acting as Commander in Chief, the Secretary of Defense is the 
only civilian official in the operational chain of command to 
the Armed Forces. Unlike the President, however, he or she is 
not an elected official. It is my view that the principle of 
excluding recently retired commissioned officers from serving 
as the Secretary of Defense is a prudent contribution to 
maintaining the constitutionally grounded principle of civilian 
control, both symbolically and in practice.
    A permanent elimination or modification to this statute 
would be detrimental to the health of our civil-military 
relations and our national security. So, too, would be 
substantially populating the upper ranks of our national 
security structures with recently retired senior military 
personnel or Active Duty personnel well beyond those positions 
already designated in statute. I come to this conclusion based 
on a number of factors.
    First, a regular reliance on former commissioned officers 
to serve as the Secretary of Defense or to widely populate the 
national security establishment's senior cadre would undermine 
the international security advantages that accrue to the United 
States from modeling strong civilian control. Others watch our 
behavior closely. They note that our leadership typically 
communicates through civilian channels, that our policymakers 
appear in civilian attire, and that our military demonstrates 
respect and deference to civilian leaders. It is also important 
to our citizens and those around the world that they witness a 
model in which senior civilians manifest appropriate approaches 
to civil-military relations demonstrated in their respect for 
the professionalism, sacrifice, and expertise of military 
personnel and in their knowledge of issues important to the 
profession of arms. These outward actions by our military and 
civilian officials support U.S. efforts to promote the embrace 
of freedom and democracy in the world, which reduces the 
instability, external aggression, and internal repression 
typically associated with military governments.
    Second, were recently retired or Active Duty military 
officers routinely selected for Secretary of Defense or to 
widely populate senior civilian positions in government, it 
would risk furthering incentives for Active Duty officers to 
politicize their speech and/or actions and for civilians to 
seek to ascertain the political viewpoints of officers as part 
of the recruitment and hiring process for political positions.
    This leads to a third concern, a coterie of individuals 
with like background typically accompanies a senior appointee 
into government. Academics know lots of academics. Economists 
know many economists. Former military personnel have extensive 
military networks. This is natural. But, what is unique in the 
national security world is the imperative for healthy civil-
military relations. This requires guarding against an over-
reliance on military viewpoints, just as it relies on ensuring 
those coming from civilian backgrounds act as respectful and 
knowledgeable counterparts.
    Fourth, the United States has an interest in developing 
knowledge and expertise about the Armed Forces among those who 
have not served, especially in those who have not served at 
very senior levels. Motivating civilians to invest in careers 
in the defense sector requires having positions of meaning to 
which they can aspire. More generally, it requires validation 
that such career pathways are legitimate, that civilians can 
bring value, expertise, and perspectives to the defense 
enterprise.
    Fifth, a recently retired senior officer at the helm of DOD 
risks prejudice with regard to service interests. Resources are 
always more constrained than one would like, so competition for 
dollars and mission space among the military departments is a 
constant reality. A Secretary of Defense who is closely 
associated with a particular service may find it difficult to 
be perceived as unbiased on important questions regarding 
service roles, combatant-command missions, and resource shares.
    These reasons undergird the Congress's general prudence 
with regard to the limitation on commissioned officers recently 
relieved from Active Duty from assuming the position of 
Secretary of Defense and for this committee to remain vigilant 
to the possible negative effects of a broad representation of 
former senior officers in the national security cadre. I do not 
foresee imminent militarization of our national security 
architecture, but the concerns about civilian control that 
motivated our founders and the architects, the post-World War 
II security architecture, have continued validity. We should 
not risk a failure of imagination.
    Despite all of these considerations, however, it is my 
personal conclusion that it is appropriate to create a specific 
exception to the statute for the Senate to consider the 
confirmation of General James N. Mattis. I reach the assessment 
based on two primary factors: the qualities of the specific 
nominee together with the safeguards in place to protect 
civilian control of the military in the presence of such an 
exception. Based on my professional interactions with General 
Mattis and a review of available material, I believe his recent 
retirement from military service should not be disqualifying to 
his consideration by this committee. I am persuaded not only by 
his grasp of the most important security issues our Nation 
faces, but also by his clear commitment to, and embodiment of, 
the principles of civilian control of the military. That 
commitment was evident in every interaction I had with General 
Mattis when I served as a senior--a civilian defense official, 
an experience shared by all such officials with whom I have 
spoken. His recently published work on civil-military relations 
reinforces my personal impressions.
    The second reason I believe it is acceptable to make an 
exception to consider the President-elect's preferred nominee 
is that I assess that the state of U.S. civil-military 
relations to be strong enough to withstand any risks such a 
once-in-two-generations exception on its own could pose. The 
United States Congress, the Nation's statutes and courts, the 
professionalism of our Armed Forces, and the will of the people 
are all critical safeguards against any perceived attempts to 
fundamentally alter the quality of civilian control of the 
military in this country. Should an exception be made in this 
case and General Mattis be confirmed as Secretary of Defense, 
oversight by this and other committees will be critical in 
reassuring domestic and foreign audiences that civilian control 
of the military is alive and well in the United States of 
America.
    As I stated earlier, I believe General Mattis's own 
behavior will reinforce that message. If it does not, this 
Congress and the courts of the United States should hold him 
accountable.
    I would like to close with an important caveat to my 
endorsement for this exemption. I have grave concerns about the 
issuance of any exemption to section 103(a) of title 10 being 
portrayed or perceived as the result of the United States 
Senate agreeing with the President-elect that it is, quote, 
``time for a general,'' unquote, to serve as Secretary of 
Defense. It should never be considered ``time for a general'' 
to fill the senior-most non-elected civilian position in the 
operational chain of command. Rather, this exemption is about a 
particular individual who is well qualified for the position to 
which the President-elect has nominated him, the anticipation 
that the exemption will be a rare generational one, and an 
assessment that there is at this time a healthy appreciation of 
the principle for civilian control of the military in this 
country.
    Although I would likely not agree with a Secretary Mattis 
on every major defense issue of the day, I am convinced that he 
passes the standard set forth during consideration of George 
Marshall's exemption for this position, whom the Washington 
Post referred to as ``a truly authentic American in his respect 
for, and devotion to, our American system of government.''
    I have submitted a fuller written statement for the record.
    Thank you.
    [The prepared statement of Dr. Hicks follows:]

                Prepared Statement by Kathleen H. Hicks
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the Committee, thank you for the invitation to appear before you today. 
I am grateful that you are taking the time to consider civilian control 
of the Armed Forces as it pertains to the nomination of General James 
N. Mattis, USMC (ret.) as Secretary of Defense. The issue before you 
today regarding a possible exception to the limitation against 
appointment of persons within seven years of relief from active duty as 
a regular commissioned officer is one that has caused significant 
reflection, discussion, and debate within the national security 
community. In the United States, we are blessed with a history of 
strong civil-military relations. Tensions do exist, however, and we 
should never take for granted that civilian control of the military, 
nor healthy civil-military relations more generally, are a foregone 
conclusion in our Republic.
    The principle of civilian control of the military is at the core of 
the American civil-military dynamic. It is firmly grounded in our 
Constitution and cemented in hundreds of years of supporting statute, 
regulation, military education, training, and culture, and senior 
civilian practice. At the outset of the Republic, when concern was high 
over the threat that a standing military could pose, maintaining fairly 
limited federal forces helped ameliorate (though did not eliminate) 
those concerns. Two world wars and the emerging Cold War environment 
convinced Americans in the twentieth century that a more substantial 
standing Armed Forces was appropriate to secure U.S. interests. Yet 
many were wary that such a standing force could tempt militarization 
and the resulting despotism experienced in Germany and Japan. These 
competing imperatives created what Samuel Huntington called a ``new 
conservatism'' that attempted to balance civilian control with improved 
military readiness.
    Congress's passage of the limitation on previously commissioned 
officers serving as Secretary of Defense within ten years of the 
cessation of their service (subsequently amended to seven years) has 
been one of the means employed to maintain civilian control despite the 
presence of a sizable standing force. Three years after enacting this 
measure, Congress created an exception to allow for the service of 
George C. Marshall as Secretary of Defense. No other such exception has 
been sought or granted until now.
    The Defense Secretary position is unique in our system. Other than 
the President acting as commander in chief, the Secretary of Defense is 
the only civilian official in the operational chain of command to the 
Armed Forces. Unlike the President, however, he or she is not an 
elected official.
    It is my view that there is a sound and enduring rationale for the 
principle of excluding recently retired commissioned officers from 
serving as the Secretary of Defense. It is not a limitation on these 
individuals' service in civilian positions in government, in national 
security, or even in the Department of Defense more generally. Indeed, 
veteran's preferences rightly help promote the federal service of 
former members of the Armed Forces. Rather, it is a narrowly targeted 
restriction for the one nonelected civilian position in the operational 
chain of command. As such, it is a prudent contribution to maintaining 
the constitutionally-grounded principle of civilian control, both 
symbolically and in practice, in the presence of a sizable and highly 
capable 21st century military.
    A permanent elimination or modification to this statute would be 
detrimental to the health of our civil-military relations and our 
national security. So, too, would be substantially populating the upper 
ranks of our national security structures with recently retired senior 
military personnel, or active duty personnel well beyond those 
positions already designated in statute. I come to this conclusion 
based on a number of factors.
    First, a regular reliance on former commissioned officers to serve 
as the Secretary of Defense, or to widely populate the national 
security establishment's senior cadre, would undermine the 
international security advantages that accrue to modeling strong 
civilian control of the military. What we do in this area matters in 
the world. Others watch our behavior closely. They note that our 
leadership typically communicates through civilian channels, that our 
policy makers appear in civilian attire, and that our military 
demonstrates respect and deference to civilian leaders. However, the 
burden of our model does not fall solely on the military. It is also 
important our citizens and those around the world witness a model in 
which senior civilians manifest appropriate approaches to civil-
military relations, demonstrated in their respect for the 
professionalism, sacrifice, and expertise of military personnel and in 
their knowledge of issues important to the profession of arms. These 
outward actions by our military and civilian officials support U.S. 
efforts to promote the embrace of freedom and democracy in the world, 
which reduces the instability, external aggression, and internal 
repression typically associated with military governments.
    Second, were recently retired or active duty military officers 
routinely selected for Secretary of Defense, or to widely populate 
senior civilian positions in government, it would risk furthering 
incentives for active duty officers to politicize their speech and/or 
actions and for civilians to seek to ascertain the political viewpoints 
of officers as part of the recruitment and hiring process for political 
positions. The civil-military dynamic at the highest levels of 
government is already challenging, where the professional military 
ethos to provide ``best military advice'' must be exercised in the 
inherently politicized and civilianized universe of foreign and 
security policy decision-making. The lines between civilian and 
military roles can be blurry in the policy world; furthering such 
tensions is unhelpful for threading the needle that our civil-military 
compact requires.
    This leads to a third concern. A coterie of individuals with like-
background typically accompanies a senior appointee into government. 
Academics know a lot of academics, economists know many economists, and 
former military personnel have an extensive military network. This is 
natural, and all officials must take pains to ensure they develop well-
rounded teams. What is unique to the national security world, however, 
is the imperative for healthy civil-military relations. This requires 
guarding against an over-reliance on military viewpoints, just as it 
relies on ensuring those coming from civilian backgrounds act as 
respectful and knowledgeable counterparts, with expertise and 
responsibilities typically distinct from those of their military 
colleagues and subordinates.
    Fourth, the United States has an interest in developing knowledge 
and expertise about the Armed Forces among those who have not served, 
especially in those who have not served at the senior-most levels. 
Motivating civilians to invest in careers in the defense sector 
requires having positions of meaning to which they can aspire. More 
generally, it requires validation that such career pathways are 
legitimate--that civilians can bring valued perspectives to the defense 
enterprise.
    Fifth, a recently retired senior officer at the helm of DoD risks 
some prejudice with regard to service interests. Most of our 
secretaries of defense have had prior service backgrounds, and some 
amount of predisposition or at least disproportionate familiarity with 
one service over the others is not unusual. Nevertheless, a very 
senior, recently retired officer is far more likely to have had an 
important role in shaping that service's policies and budgets. 
Resources are always more constrained than one would like, so 
competition for dollars and mission-space among the Military 
Departments is a constant reality. A Secretary of Defense who is 
closely associated with a particular service may find it difficult to 
be perceived as unbiased on important questions regarding service 
roles, combatant command missions, and resource shares. 
Overcompensation on such issues is also a possibility against which to 
guard.
    These reasons undergird the Congress's general prudence with regard 
to the limitation on commissioned officers recently relieved from 
active duty from assuming the position of Secretary of Defense, and for 
this Committee to remain vigilant to the possible negative effects of a 
broad representation of former senior officers in the national security 
cadre. I do not foresee imminent militarization of our national 
security architecture, but the concerns about civilian control that 
motivated our Founders and the architects of the post-World War Two 
security architecture, have continued validity. We should not risk a 
failure of imagination.
    Despite all of these considerations, concerns, and cautions, 
however, it is my personal conclusion that it is appropriate to create 
a specific exception to the statute for the Senate to consider the 
confirmation of General James N. Mattis, USMC (ret.). I reach this 
assessment based on two primary factors: the qualities of the specific 
nominee and the safeguards in place to protect civilian control of the 
military in the presence of such an exception.
    Based on my professional interactions with General Mattis and a 
review of available material, I believe General Mattis's recent 
retirement from military service should not be disqualifying to his 
consideration by this Committee and the United States Senate to be 
confirmed as the nation's next Secretary of Defense. I am persuaded not 
only by his expert grasp of the most important security issues our 
nation faces but also by his clear commitment to and embodiment of the 
principles of civilian control of the military. That commitment was 
evident in every interaction I had with General Mattis when I served as 
a senior civilian defense official, an experience shared by all such 
officials with whom I have spoken. His recently published work on 
civil-military relations reinforces my personal impressions. As he and 
co-author Kori Shake rightly stated in their 2016 work on this topic:

        ``The president is elected to determine the amount of effort to 
        direct toward a war and has the right to disregard the 
        military's counsel. Military leaders lack the public mandate to 
        make necessary trade-offs between, for example, security and 
        civil liberties.''

        And

        ``Our military . . . understands better than do civilians that 
        its high stature with the American public depends on respecting 
        the prohibition on activism beyond the military sphere.'' \1\
---------------------------------------------------------------------------
    \1\ Kori Schake and Jim Mattis, ``Ensuring a Civil-Military 
Connection,'' in Kori Schake and Jim Mattis, eds., Warriors and 
Citizens: American Views of our Military (Stanford: Hoover Institution 
Press, Stanford, CA, 2016), 299.

    The second reason I believe it is acceptable to make an exception 
to the limitation on recently separated officers in order to consider 
the President-elect's preferred nominee is that I assess the state of 
U.S. civil-military relations to be strong enough to withstand any risk 
such a once-in-two-generations exception, on its own, could pose. The 
United States Congress, the nation's statutes and courts, the 
professionalism of our Armed Forces, and the will of the people are 
critical safeguards against any perceived attempts to fundamentally 
alter the quality of civilian control of the military in this country. 
Should an exemption be made in this case, and General Mattis be 
confirmed as Secretary of Defense, oversight by this and other 
committees will play a critical role in reassuring domestic and foreign 
audiences that civilian control of the military is alive and well in 
the United States of America. As I stated earlier, I believe General 
Mattis's own behavior will reinforce that message. It if does not, this 
Congress and the courts of the United States should hold him 
accountable.
    I would like to close with an important caveat to my endorsement 
for this exemption. I have grave concerns about the issuance of any 
exemption to section 103(a) of title 10 being portrayed or perceived as 
the result of the United States Senate agreeing with the President-
elect that it is ``time for a general'' to serve as Secretary of 
Defense. \2\ It should never be considered ``time for a general'' to 
fill the senior-most nonelected civilian position in the operational 
chain of command. Rather, this exemption is about a particular 
individual who is well qualified for the position to which the 
President-elect has nominated him, the anticipation that the exemption 
will be a rare, generational one, and that it comes at a time of 
healthy appreciation of the principle for civilian control of the 
military. Although I would likely not agree with a Secretary Mattis on 
every major defense issue of the day, I am convinced that he passes the 
standard set forth during consideration of George Marshall's exemption 
for this position, whom the Washington Post referred to as ``a truly 
authentic American in his respect for and devotion to our American 
system of government.'' \3\
---------------------------------------------------------------------------
    \2\ Donald J. Trump, transcript of interview with the New York 
Times, November 23, 2016. Accessed at: http://www.nytimes.com/2016/11/
23/us/politics/trump-new-york-times-interview-transcript.html?smid=tw-
nytimes&smtyp=cur&--r=0.
    \3\ ``Marshall as Secretary,'' Washington Post, 14 September 1950, 
10.
---------------------------------------------------------------------------
    Thank you for the opportunity to testify today on this important 
issue, and I look forward to your questions.

    Chairman McCain. Thank you, Doctor.
    Dr. Cohen.

  STATEMENT OF ELIOT A. COHEN, ROBERT E. OSGOOD PROFESSOR OF 
      STRATEGIC STUDIES, JOHNS HOPKINS SCHOOL OF ADVANCED 
                     INTERNATIONAL STUDIES

    Dr. Cohen. Thank you, Senator McCain. It's an honor to 
appear before you. I have a--I also have a written statement, 
which I'd like to submit for the record----
    Chairman McCain. Without----
    Dr. Cohen.--if I might.
    Chairman McCain. Without objection.
    Dr. Cohen. I have to say, listening to my friend and 
colleague, Dr. Hicks, it is very striking to me that the two of 
us are, I think, pretty much in complete agreement. I'll be 
making a somewhat different set of arguments, but I find myself 
very much convinced by hers, and I share her views.
    My bottom line on the issue of the day is simple. I 
strongly support the law that prohibits individuals that have--
who have served in the military from becoming Secretary of 
Defense within seven years of leaving the service. At the same 
time, I favor an amendment to permit General Mattis to serve in 
that office despite having met that cooling-off period.
    To explain these positions, let me begin with some basic 
propositions about our country's experience with civil-military 
relations. The principle of civilian control of the military--
not collaboration with it, not mere direction of it, but 
civilian control--is central to the American experience since 
colonial times. The bill of particulars directed at King George 
III in the Declaration of Independence reads, among other 
things, that he has effected to render the military independent 
of, and superior to, the civil power. For a century before the 
Constitution, and certainly throughout the history of the 
Republic, firm civilian control has been a matter of American 
consensus challenged only on such rare occasions as the Truman-
MacArthur controversy in 1951 and then resolved unambiguously 
in favor of civilian authority.
    Some degree of civil-military tension has always existed in 
our country, and that is usually a good thing, a source of 
productive divergence of views about everything from strategy 
to internal administration. At times, the difference of views 
have been acrimonious, as, for example, during the famous 
standoffs between Abraham Lincoln and George McClellan during 
the Civil War, or in the late 1940s over the desegregation of 
the Armed Forces, or the dispute over ending the draft in the 
early 1970s. In these cases, the civilian political view 
properly and beneficially prevailed.
    The practice embodied in the law of having a civilian 
Secretary of Defense stems from both that history and, I think, 
from four sets of concerns:
    The first is that it reflects the notion that control over 
the largest bureaucracy in our government, with the largest 
budget, and with enormous power in many dimensions, including, 
potentially, over the lives of our own citizens, must rest with 
someone who represents the American citizenry, not a military 
elite, which, in the nature of things, is appropriately self-
selected along military lines until the very top ranks.
    Second, it stems from the belief that there is a breadth of 
view and perspective essential to running the military and 
making war that is not likely to be found in someone who has 
spent 30 or 40 years in uniform. The Armed Forces are what one 
sociologist has called ``a total institution,'' comparable in 
some ways to the priesthood in the Catholic Church. A career of 
military service affects every feature of one's life, down to 
how one wears one's hair. Living in such an institution and 
removed from civil society throughout the prime of one's life 
can be a narrowing as well as a broadening experience, and it 
certainly leaves an indelible mark. It is one reason why, in a 
certain sense, generals never retire.
    Third, having a recently retired general officer as 
Secretary of Defense poses all kinds of practical problems. 
Would they be inclined to favor the Joint Chiefs of Staff, 
military, over the Office of the Secretary of Defense, 
civilian? Would they be inclined to favor their own service 
over the others? Would they bypass the Chairman of the Joint 
Chiefs of Staff as the senior military advisor to the 
President? Would they allow the normal rivalries or close 
friendships of their military career to affect their position 
of civilian head of the Department? Even the appearance of such 
biases, let alone the reality, would make effective leadership 
of the Department of Defense difficult or indeed impossible.
    Fourth, the Secretary of Defense is in many ways the chief 
interlocutor or bridge, if you will, between our Armed Forces 
and our society, the President being too busy and burdened with 
many other responsibilities. It is the Secretary of Defense who 
represents the concerns, values, and interests of the Armed 
Forces to politicians and to society. In turn, he or she 
guarantees that democratic values, attitudes, and needs will 
inform and shape the American military.
    Furthermore, countries that have routinely installed 
generals as Ministers of War or Defense have often had deeply 
problematic patterns of civil-military relations and suffered 
military failure, as well. France and Germany in the late 19th 
and early 20th centuries, Japan during the 1930s and World War 
II are two--are examples of this. Such is the practice in 
recent years in Russia, as it was in the Soviet Union. Even 
democracies that have gone down this route have suffered from 
the politicization of the senior officer corps by the routine 
appointment of retired military figures to this top civilian 
position. A prime case is Israel, whose politics are often 
roiled by maneuvering among Active Duty and retired generals, a 
point that has been noticed by American generals familiar with 
that country and well documented by Israeli scholars.
    The long question, therefore, makes eminent sense. But it 
was amended in September 1950 to allow for the appointment of 
General George C. Marshall as Secretary of Defense, for two 
reasons. The first had to do with the sense of national 
emergency. The Korean War had gone on for three bitter months. 
The Inchon landings were about to begin, and with them a bloody 
campaign to reunify the peninsula in the face of warnings of 
Chinese intervention. At the same time, the United States was 
sending four divisions to reinforce the two already in Europe, 
our first peacetime commitment of substantial Armed Forces 
abroad. War with the Soviet Union, which had, only a year 
before, detonated a nuclear weapon, seemed a real possibility. 
In that setting, and having lost confidence in Secretary of 
Defense Louis Johnson, President Truman correctly believed that 
he needed an exceptional leader for the relatively new 
Department of Defense. Truman had tremendous trust in Marshall 
because of the General's character and judgment, as well as the 
exceptional breadth of experience of a man who had after all 
been an important Secretary of State as well as one of the 
architects of the greatest coalition in military history.
    Second--and this clearly influenced Congress as well as 
President Truman--was the desire to reassure the American 
people in extremely difficult times. American political leaders 
correctly believed that Marshall, a revered figure because of 
his monumental role as Chief of Staff during World War II, 
could do that. Congress, therefore, amended the law 
reluctantly, insisting that, by so doing, it was not creating a 
precedent, and advising that this not be repeated in the 
future.
    I believe, however, that our current circumstances warrant 
taking this step a second time. I have known General Mattis for 
well over a decade. He is probably the most widely read and 
reflective officer I know. He is a writing general, too, as Dr. 
Hicks has pointed out, the coeditor of a recent important book 
on civil-military relations. More important than any of that, 
he has shown himself to be a man of exceptional character and 
judgment and exemplary commitment to legal and constitutional 
norms. I would trust him to conceive and execute policy as 
anyone on this committee would wish. He's not General Marshall, 
but he is, indeed, a man of similar integrity and soundness, 
and of very wide experience.
    Much as I admire and respect him, however, I would not 
advocate this change were it not for two other aspects of the 
question. We face a world that may not be quite as dangerous as 
that of 1950, but has some deeply troubling similarities to it. 
We are waging our third war in Iraq in a generation. We are not 
close to ending the Afghan war. We face a contest with jihadi 
elements seeking to inflict violence and destroy regimes across 
broad swaths of the globe. We must deal with a rising China 
with hegemonic aspirations in Asia, a revanchist Russia that 
has committed blatant aggression against its neighbors and even 
interfered in our own elections, an Iran that has paused but 
not halted its drive for nuclear weapons and regional 
ascendancy. We will soon be looking at a North Korea that has 
built intercontinental ballistic missiles that can hit the 
United States with nuclear weapons. Ours is a very dangerous 
world that can tip into crisis with very little notice.
    Yet, even this sense of danger would not bring me to the 
point of urging a revision of the law were it not for my 
concerns about the incoming administration. I have sharply 
criticized President Obama's policies, but my concerns pale in 
comparison with the sense of alarm I feel about the judgment 
and dispositions of the incoming White House team. In such a 
setting, there is no question in my mind that a Secretary 
Mattis would be a stabilizing and moderating force, preventing 
wildly stupid, dangerous, or illegal things from happening, 
and, over time, helping to steer American foreign and security 
policy in a sound and sensible direction.
    Under these conditions, then, I urge you to amend the law 
to permit the appointment of General Mattis, but, at the same 
time, I urge you equally strongly to keep the law on the books, 
even restoring, if it seems proper to you, the ten year 
cooling-off period. The principle of civilian control of the 
military is precious and essential to our form of government. 
Making an exception twice in nearly 70 years while keeping the 
fundamental legislation intact and reaffirming the arguments 
behind it will not, in my judgment, threaten that principle, 
but, rather, reinforce it.
    [The prepared statement of Dr. Cohen follows:]

                  Prepared Statement by Eliot A. Cohen
    I appreciate the opportunity to appear before the Committee on this 
important topic. What follows reflects my views as both a scholar of 
civil-military relations, and my experience as a senior government 
official who routinely dealt with general and flag officers, and issues 
of war and peace. \1\
---------------------------------------------------------------------------
    \1\ Supreme Command: Soldiers, Statesmen, and Leadership in Wartime 
(New York: Free Press, 2002) and more recently, The Big Stick: The 
Limits of Soft Power and the Necessity of Military Force (New York: 
Basic Books, 2017). From 2007-2008 I served as Counselor of the 
Department of State with particular responsibility for strategic 
issues, including the wars in Iraq and Afghanistan.
---------------------------------------------------------------------------
    My bottom line on the issue of the day is simple. I strongly 
support the law that prohibits individuals who have served in the 
military from becoming Secretary of Defense within seven years of 
leaving the service. At the same time, I favor an amendment to permit 
General James Mattis, USMC (ret.) to serve in that office despite 
failing to meet the seven year cooling off period.
    To explain these positions, let me begin with some basic 
propositions about our country's experience with civil-military 
relations.
    The principle of civilian control of the military--not 
collaboration with it, as some have put it, or mere direction of it--is 
central to the American experience since colonial times. The bill of 
particulars directed at King George III in the Declaration of 
Independence reads, among other things, that ``He has affected to 
render the Military independent of and superior to the Civil Power.'' 
For a century before the Constitution, and certainly throughout the 
history of the Republic, firm civilian control has been a matter of 
American consensus, challenged only on rare occasions such as the 
Truman-MacArthur controversy in 1951, and then resolved unambiguously 
in favor of civilian authority.
    Some degree of civil-military tension has always existed in our 
country, and that has usually been a good thing--a source of productive 
divergence of views about everything from strategy to internal 
administration. At times the differences of view have been acrimonious 
as, for example, during the famous standoff between Abraham Lincoln and 
General George McClellan during the Civil War, or in the late 1940's 
turmoil over desegregation of the Armed Forces, or the dispute over 
ending the draft in the early 1970's. In these cases, the civilian 
political view properly and beneficially prevailed.
    The firm practice, embodied in section 113 (a) of title 10 of the 
U.S. Code, of having a civilian Secretary of Defense stemmed from this 
history and these values. It embodies four sets of concerns:
    First, it reflects the notion that control over the largest 
bureaucracy in our government, with the largest budget and with 
enormous power in many dimensions including potentially over the lives 
of our own citizens, must rest with someone who represents the American 
citizenry--not a military elite, which in the nature of things is 
appropriately self-selected, along military lines until the very top 
ranks.
    Second, it stems from the belief that there is a breadth of view 
and perspective essential to running the military and making war that 
is not likely to be found in someone who has spent thirty or forty 
years in uniform. The Armed Forces are what one sociologist has called 
``a total institution,'' comparable to priesthood in the Catholic 
Church. A career of military service affects every feature of one's 
life, down to how one wears one's hair. Living in such an institution 
at a remove from civil society throughout the prime of one's life can 
be a narrowing as well as a broadening experience, and it leaves an 
indelible mark. It is one reason why, in a certain sense, generals 
never truly retire.
    Third, having a recently retired general officer as Secretary of 
Defense poses all kinds of practical problems: would they be inclined 
to favor the Joint Chiefs of Staff (military) over the Office of the 
Secretary of Defense (civilian)? Would they be inclined to favor their 
own service over the others? Would they bypass the Chairman of the 
Joint Chiefs of Staff as the senior military adviser to the President? 
Would they allow the normal rivalries or close friendships of their 
military career to affect their position of civilian head of the 
department? Even the appearance of such biases, let alone their 
reality, would make effective leadership of the Department of Defense 
difficult or impossible.
    Fourth, the Secretary of Defense is in many ways the chief 
interlocutor between the military and society, the President being too 
busy and burdened with many other responsibilities. It is he or she who 
represents the concerns, values and interests of the Armed Forces to 
politicians and to society. In turn, he or she guarantees that 
democratic values, attitudes and needs will inform and shape the 
American military.
    Furthermore, countries that have routinely installed generals as 
Ministers of War or Defense have often had problematic patterns of 
civil-military relations, and suffered military failures as well. 
France and Germany in the late nineteenth and early twentieth centuries 
and Japan during the 1930's and World War II are examples of this. Such 
is the practice in recent years in Russia, as it was in the Soviet 
Union. Even democracies who have gone down this route have suffered 
from the politicization of the senior officer corps by the routine 
appointment of retired military figures to this top civilian position. 
A prime case is Israel, whose politics are often roiled by maneuvering 
among active duty and retired generals--a point often noticed by 
American generals familiar with that country and well documented by 
Israeli scholars. \2\
---------------------------------------------------------------------------
    \2\ See the work of one of Israel's most thoughtful scholars of 
civil-military relations, Yoram Peri, Generals in the Cabinet Room: How 
the Military Shapes Israeli Policy (Washington, DC: United States 
Institute of Peace, 2006). By far the most successful of Israel's 
defense ministers--David Ben Gurion, founding father of the Israel 
Defense Forces--had minimal military experience.
---------------------------------------------------------------------------
    The law in question, therefore, makes eminent sense. But it was 
amended in September 1950 to allow for the appointment of General 
George C. Marshall as Secretary of Defense for two reasons.
    The first had to do with the sense of national emergency. The 
Korean war had gone on for three bitter months; the Inchon landings 
were about to begin and with them a bloody campaign to reunify the 
peninsula in the face of warnings of Chinese intervention. At the same 
time, the United States was sending four additional divisions to 
reinforce the two already in Europe--our first peacetime commitment of 
substantial Armed Forces abroad. War with the Soviet Union, which had 
only a year before stunned the world by testing a nuclear weapon, 
seemed a real possibility. In this setting, and having lost confidence 
in Secretary of Defense Louis Johnson, President Truman correctly 
believed that he needed an exceptional leader for the relatively new 
Department of Defense. Truman had tremendous trust in Marshall because 
of the general's character and judgment, as well as the exceptional 
breadth of experience of a man who had, after all, been an important 
Secretary of State as well as one of the architects of the greatest 
coalition in military history.
    Second, and this clearly influenced Congress as well as President 
Truman, was the desire to reassure the American people in extremely 
difficult times. American political leaders correctly believed that 
General Marshall, a revered figure because of his monumental role as 
Chief of Staff of the Army during World War II could do that.
    Congress therefore amended the law reluctantly, insisting that by 
so doing it was not creating a precedent, and advising that this not be 
repeated in the future. I believe, however, that our current 
circumstances warrant taking this extraordinary step a second time.
    I have known General Mattis for over a decade. He is probably the 
most widely read and reflective officer I know. He is a writing general 
too, the co-editor of an important recent book on civil-military 
relations. More importantly, he has proven himself to be a man of 
exceptional character and judgment, and exemplary commitment to legal 
and Constitutional norms. I would trust him to conceive and execute 
policy as any of us would wish. He is not General Marshall--but he is 
indeed a man of similar integrity and soundness, and of very wide 
experience.
    Much as I admire and respect him, however, I would not advocate 
this change were it not for two other aspects of the question. We face 
a world that may not be quite as dangerous as that of 1950, but has 
deeply troubling similarities to it. We are waging our third war in 
Iraq in a generation. We are not close to ending the Afghan war. We 
face a contest with jihadi elements seeking to inflict violence and 
destroy regimes across broad swathes of the globe. We must deal with a 
rising China with hegemonic aspirations in Asia; a revanchist Russia 
that has committed blatant aggression against its neighbors and even 
interfered in our elections; an Iran that has paused but not halted its 
drive for nuclear weapons and regional ascendancy. We will soon be 
looking at a North Korea that has built intercontinental ballistic 
missiles that can hit the United States with nuclear weapons. Ours is a 
dangerous world that could tip into crisis with very little notice.
    Even this sense of danger, however, would not bring me to the point 
of urging a revision of the law were it not for my views of the 
incoming administration. I have sharply criticized President Obama's 
policies, but my concerns pale in comparison with the sense of alarm I 
feel about the judgment and dispositions of the incoming White House 
team. In such a setting, there is no question in my mind that a 
Secretary Mattis would be a stabilizing and moderating force, 
preventing wildly stupid, dangerous, or illegal things from happening, 
and over time, helping to steer American foreign and security policy in 
a sound and sensible direction.
    Under these conditions, then, I urge you to amend the law to permit 
the appointment of General Mattis--but at the same time I urge you 
equally strongly to keep the law on the books, even restoring, if it 
seems proper to you, the ten year cooling off period. The principle of 
civilian control of the military is precious, and essential to our form 
of government. Making an exception twice in nearly seventy years, while 
keeping the fundamental legislation intact and reaffirming the 
arguments behind it, will not, in my judgment, threaten that principle 
but rather reinforce it.

    Chairman McCain. Well, thank you both.
    Both of you have known General Mattis for some period of 
time. Has he always--or, have you ever known him not to have 
the utmost commitment to the civilian control--our fundamental 
principle of civilian control of the military?
    Dr. Cohen. I have always known him to have exactly that 
commitment.
    Chairman McCain. Dr. Hicks?
    Dr. Hicks. Agree.
    Chairman McCain. I guess just one other comment or 
question. What you bring to mind, Dr. Cohen, is that, at least 
in the minds of some of us, the world is in greater danger than 
it's been since the days of then-General, slash, Secretary 
Marshall. There's very few people in--both in and out of the 
military that have the experience with these challenges that 
General Mattis does at this time. Would you agree?
    Dr. Cohen. Yes, sir, I would agree, although I would just 
add that, as has long been pointed out, the Secretary of 
Defense is, other than the presidency, probably the most 
difficult job in the Federal Government. I would trust General 
Mattis as much as, or more than, just about anybody else. But, 
I do think the range of challenges he's--he will face, if he is 
confirmed, will be enormous.
    Chairman McCain. So, there is some historic parallel 
between the selection and need for General Marshall as there is 
today a need for the experience and knowledge and leadership of 
General Mattis. Is that--is it--do you agree with that 
assessment, Dr. Hicks?
    Dr. Hicks. I--with the emphasis on the individual 
characteristics of General Mattis, I agree with that. I would 
hesitate to ever say, as I said, that there's any indication 
that dangerous times require a general. I don't think that's 
the issue. I think dangerous times require experience and 
commitment, which I think--as your question suggests--which I 
think General Mattis can bring.
    Dr. Cohen. If I may, Senator, just to add to that. I don't 
think one can consider this case--rather somewhat unlike the 
case of 1950--without regard to the President. I mean, the 
President has to have somebody that they will listen to. I 
guess I do tend to believe that President-elect Trump will be 
inclined to listen to General Mattis. That, for me, is a very, 
very important consideration.
    Chairman McCain. One can only hope.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Let me thank the witnesses for very thoughtful and eloquent 
testimony about a very significant issue.
    Again, let me thank the Chairman for structuring this 
process so that we could have careful deliberation of the 
policy before we actually consider the legislation. Thank you 
very much, Mr. Chairman.
    Dr. Hicks, you pointed out that this is a rare generational 
moment. I think, Dr. Cohen, you would agree also. That leads to 
a sort of very pragmatic question, if I may, that if, indeed, 
General Mattis is confirmed, but if he leaves office, that we 
would almost have to reflexively object to a replacement of 
another recently retired military officer. Would that be your 
view, Dr. Hicks?
    Dr. Hicks. It would be. In fact, I think less a risk that 
this sets a new precedent, I think it's an opportunity cost. 
That is to say that I would not imagine, in the next 20-plus 
years, that we would see ourselves back in a hearing of this 
nature over another recently retired general officer.
    Senator Reed. Dr. Cohen, your thoughts?
    Dr. Cohen. I very much agree with Dr. Hicks.
    Senator Reed. Thank you.
    Dr. Cohen, you pointed out in your testimonies one of the 
areas of concern that I raised, which is a dynamic that results 
when a non-civilian is the head of the Department of Defense, 
which is--the principal military advisor to the President is 
the Chairman of the Joint Chiefs of Staff. Yet, you have two 
very competent--ironically, Marine four-stars, probably with at 
least tangential service, if not joint service. In--how do we 
avoid--or how would the--if General Mattis is confirmed, how 
does he consciously avoid that? How do we monitor--in fact, you 
both made the point, we have a role of making sure that this, 
if it takes place, is done aboveboard entirely, completely. 
Could you comment?
    Dr. Cohen. Well, the first thing I would say is, 
absolutely, the role of congressional oversight, and 
particularly by this committee, I think--never be important 
than it's going to be in coming years. I first met General 
Dunford, actually, when he was General Mattis's Chief of Staff 
in Iraq, when General Mattis was commanding 1st Marine 
Division. I've--I know both of them reasonably well. I guess my 
feeling about that is, these are both men with a--an 
exceptional sense of professional ethics and rectitude. This 
will basically come down to relationships between two 
personalities. I think they will both be very conscious about 
what the lanes are that they operate in. But, there's no 
question, it will be challenging.
    I guess the other point one will have to make is, it'll be 
interesting to see how long General Dunford is going to stay as 
the Chairman and who's the next Chairman. Presumably, it'll 
become a little bit easier. But, this will undoubtedly be an 
issue, and it would be the most natural thing in the world for 
a President Trump to ask General Mattis to act as kind of a 
military advisor. I think General Mattis will be--as Secretary 
Mattis--will be self-conscious enough to say, ``You know, you 
really should be directing that question--I have my views, but 
you should be directing that question to the Chairman.''
    Senator Reed. Let me ask you both, too. The Secretary of 
Defense has responsibilities strategic, but huge 
responsibilities when it comes to running a huge bureaucracy 
with all of the management issues and personnel issues and 
logistical issues and other issues. Your sense of this 
exemption in that context. Typically, a civilian going into 
this role would have great expertise in business or in other 
management positions within government. That's not the case. 
General Mattis has a complete dedication to the Marine Corps 
since--17 or so. So--Dr. Hicks first, and then Dr. Cohen.
    Dr. Hicks. Well, I think it's fair to say every Secretary 
comes in truly with a unique set of skills. When you're 
staffing in and around that, not just in the national security 
team, but in the Defense Department, you do need to take 
account, absolutely, in the fuller staffing, the deputy 
position and others, what kind of management expertise is being 
brought in. I don't think it's fair to put every attribute of 
necessary management quality, international security 
experience, experience with the military or the Armed Forces, 
understanding of the bureaucratic elements--it's too much, 
really, to layer onto one person, but it's very important, as 
this committee looks at confirmations for the whole team for 
defense, that those attributes are covered.
    Senator Reed. Dr. Cohen, your comment.
    Dr. Cohen. I completely agree with Dr. Hicks.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    It's rare that a confession like this is made, but I really 
did come here to learn. It's been really good testimony. I--one 
thing that has occurred to me is--we keep repeating over and 
over again that the senior--the senior officer. What about 
enlisted personnel?
    Dr. Cohen. I think that's a completely different issue, 
Senator. I really do. I think there's--you know, I could give 
you a long lecture, which would bore you to tears, about the 
history of civil-military relations, but I think the 
distinction between officer and enlisted is quite important. 
But, more importantly, you know, the purpose of the law is 
really to exclude general officers from moving from----
    Senator Inhofe. Yeah.
    Dr. Cohen.--being generals to Secretaries.
    Senator Inhofe. I understand that. The--of course, we had 
Chuck Hagel.
    Do you have any thoughts about that, Dr. Hicks?
    Dr. Hicks. I would just agree, it is very different. 
Secretary Hagel, coming as a former enlisted, really did 
bring----
    Senator Inhofe. Lots of time, too.
    Dr. Hicks. Yes. He brought a unique perspective in that 
sense, but it is unlike the idea of someone coming from the top 
of the organization, the military hierarchy, into the top of 
the civilian----
    Senator Inhofe. Yes.
    Dr. Hicks.--hierarchy.
    Senator Inhofe. No, I understand that.
    Dr. Hicks. So, it just has a different character.
    Senator Inhofe. Okay. The--I understand that. That's----
    Well, you know, each one of you talked about what would 
justify a--treating this differently than it's been treated 
since George Marshall. I--the only disagreement I would have--
and I think that you come up from a much more learned 
perspective, but--when you made the statement that the sense of 
national emergency and--was not as dangerous as it was back in 
the '50s, I have a hard time with that one, because I look and 
see that--and I've often said that I look wistfully back at the 
days of the Cold War. But, right now, we have mentally deranged 
people who are developing a capability of inflicting huge 
damages on this country. That does----
    So, whom do you--explain, just very briefly, when you say 
there's never a time for a general. Tell me what you mean by 
that.
    Dr. Hicks. Sure. What I mean to say is, because of the way 
our Framers put forward civilian control of the military as 
central----
    Senator Inhofe. Yeah.
    Dr. Hicks.--President is Commander in Chief, always in a 
civilian capacity, even if the President, like Eisenhower, is a 
former general--in the same instance, the Secretary of Defense 
is a very unique position in our system. It's non---it's--it 
also carries an operational chain-of-command responsibility, 
but is not nonelective, so there is special concern around it. 
My point being, that position may be filled with someone with 
military experience or not military experience. What we want to 
look for is someone who has the right desire for knowledge and 
expertise and judgment and character to live out the principles 
about Secretary of Defense issues. We don't pick them because 
they're a general officer. That is antithetical----
    Senator Inhofe. That's clear.
    Dr. Hicks.--to our very system.
    Senator Inhofe. Yeah. That's clear.
    Dr. Cohen. Senator, if I could just--the historian in me 
wants to point out--in 1950, people thought there was a serious 
possibility that World War III was just around the corner. You 
know, I don't think any of us really quite feel that as--and, 
although I agree with your basic assessment of where we are 
these days.
    Senator Inhofe. Yeah, of capabilities that are out there 
that weren't there before. That's good. I appreciate very much 
and enjoyed your testimony.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman and Ranking 
Member Reed, for hosting this hearing. I think this is such a 
critical discussion for our Nation.
    Interestingly, both of you believe so deeply in civilian 
control, but not because of this President. That is a 
enormously weighty and serious statement that you both said.
    Now, Dr. Hicks, you didn't define what your concerns were. 
You just said ``the attributes of this President.'' Dr. Cohen, 
you were quite specific about the fears that you had on 
judgment. Can you please be specific that--why this enormous 
exception should be made because of the judgment of this 
President or the attributes of this President? Because you both 
made a very strong case about why civilian leadership is 
essential to our democracy and a very important provision of 
our Founding Fathers' concept for what our democracy would look 
like.
    Dr. Cohen. As you may know, Senator, I was one of the 
ringleaders in these two letters by Republican national 
security experts that were very critical of then-candidate 
Trump. I will just mention one of the issues which is referred 
to in both of those letters, and that's the issue of torture. 
As a candidate, the President-elect indicated that he would be 
in favor of the ample use of torture, not only against 
suspected terrorists, but against their families. That's 
outrageous. It's illegal. It's profoundly immoral. I think a 
General Mattis--a Secretary Mattis would refuse to comply with 
that kind of order, and I think that's very important.
    Dr. Hicks. Senator----
    Senator Gillibrand. Excuse me. You just said that you 
believe the Secretary of Defense wouldn't comply with an order 
from the Commander in Chief?
    Dr. Cohen. A Secretary of Defense should never comply with 
an illegal order from the Commander in Chief.
    Senator Gillibrand. Dr. Hicks?
    Dr. Hicks. Senator, I don't recall referring to the 
President-elect's attributes. I did make reference to the 
statement he has made about, ``It's time for a general,'' which 
worries me greatly. I will say--so----
    Senator Gillibrand. You said--your quote was ``qualities of 
the nominee.''
    Dr. Hicks. I'm sorry, I don't think I have that in my 
statement.
    Senator Gillibrand. I wrote it down.
    Dr. Hicks. I apologize.
    Okay. In any case, my view is that there ought to be a 
strong national security team at all times in any presidency. 
In this particular configuration that we have, as has already 
been mentioned, there's a number of retired general officers 
coming in. There's a seeming lack of attention to career 
diplomatic skills inside that mix. I have concerns about the 
way in which that whole apparatus will operate. I think General 
Mattis could be a very strong figure in that. It is clear, as 
Professor Cohen has indicated, that the President-elect, at 
least in one instance that we know of quite publicly, has 
listened, in a way that's very effective for civilian control, 
to the advice of General Mattis. This being with regard to 
reversing any kind of viewpoint on illegal torture.
    So, my view is that he could play a very helpful role in 
this administration. I would like to think that we--were we 
sitting here with a different President-elect who had nominated 
General Mattis, I would nevertheless probably come to the same 
conclusion. I think our--we may different slightly on that. 
Because I think, again, our system is healthy enough, and you 
are able, as part of that system, to regulate it and oversee 
it. I believe that we are also looking at a person who has 
attributes that are on the level of Marshall's attributes for 
Secretary of Defense.
    Senator Gillibrand. Okay. So, now let's focus on the points 
that you both make in your writings, that are very clear, about 
the importance of civilian control.
    Dr. Cohen, you specifically talk about the unequal dialogue 
and how important it is to have the diversity of opinions in 
advising on national security, and that there's a push and a 
pull that results in better outcomes. Dr. Hicks, you talk about 
the importance of thinking through the full rage--range of 
implications--operational implications, strategic implications, 
pragmatic implications, meaning technical feasibility, dollars 
and cents, et cetera, and political elements. So, without the 
diversity of opinion, with this particular group of national 
security advisors, where do you think this committee will need 
to have vigilance because we have a blindspot? What diversity 
of opinion will now not be offered because we have such a high 
complement of extraordinary public servants, extraordinary 
generals with extraordinary capabilities, but--you've both 
outlined the importance, because of the diversity, and we now 
lack that. So, I need you to tell this committee where are the 
blindspots that we will need to be aggressively providing 
oversight?
    Dr. Cohen. I would say, in addition to all the other things 
that you do, the question of strategy. What are we using our 
Armed Forces for? I mean, traditionally Congress spends a lot 
of time on the administration of the Department of Defense, 
acquisition, lots and lots of things. But, I think you also 
have an enormous role to play in examining, exploring, in some 
cases critiquing the way in which we use military power to 
achieve political ends. You've done that before. But, I think 
it will be particularly urgent in the period going ahead.
    Dr. Hicks. Again, I think I would emphasis, more than 
anything, the diplomatic skillset and how that's going to play 
out. That's obviously an issue for State Department, but it is 
an issue within the Department of Defense, as well. There's a 
lot of defense-to-defense diplomacy that we rely upon. You 
know, short of the--of actual use of arms, we have a lot of 
alliances and partnerships that are important to maintain and 
sustain and push forward. I think that will be something to pay 
close attention to, particularly given the President-elect's 
statements during the campaign with regard to allies.
    Chairman McCain. I thank you, Dr. Cohen, for pointing out 
that the oath that is taken is to support and defend the 
Constitution of the United States, not to obey the orders of 
the President of the United States. There is a law against 
torture. No Secretary of Defense or officeholder should violate 
the law. That's what I would rely on General Mattis or any 
other Cabinet member or anyone in position of responsibility. 
Their first obligation is to obey the law.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    One issue that we have seen come up in this debate is the 
so-called militarization of foreign and national security 
policy decisions. I've heard some arguments that if we confirm 
General Mattis, we're going to continue that trend. So, I would 
ask both of you, first, Do you think there is a trend towards 
that?
    Dr. Cohen. Let me--I'll--let me speak as a former diplomat. 
I was the counselor of the Department of State for several 
years. There is clearly an imbalance simply because of the size 
of the Department of Defense and the way our combatant commands 
operate. I don't think the presence of a Secretary Mattis at 
the head of the Department of Defense matters, one way or 
another. You know, it gets down to much more mundane things, 
like, when a combatant commander shows up, they've got an 
airplane, they've got, you know, spear carriers and people in a 
vast entourage. When an Assistant Secretary of State shows up, 
they are kind of poured out of the back of a United Airlines 
plane, and they are not in--on a plane that has the seal of the 
United States. It's not surprising that the locals look at that 
and say, ``Okay, we know who matters. It's the General.'' I 
think it's those kinds of issues. You know, I'm not being 
facetious, actually. It sounds humorous, but I'm not being 
facetious. I have personally seen that happen in capitals 
around the world, and that is something that is worthy of your 
attention.
    Senator Fischer. But, those actions aren't really the 
result of any decision or any action taken by any senior 
military leader, are they? It's more of a perception that is 
out there, right?
    Dr. Cohen. Yes and no. I mean, part of it--you know, a 
combatant commander has resources. A combatant commander can do 
things. They can move airplanes and people and supplies and so 
forth. So, there is built-in this kind of asymmetry to the 
advantage of the Department of Defense, which is not exercised 
in a malign way or with malign intent. It just is. You know, if 
you need relief--flood relief or something like that, State 
Department can't do a whole lot for you. Department of Defense 
can.
    Senator Fischer. Okay.
    Dr. Hicks?
    Dr. Hicks. I completely agree with Professor Cohen. I think 
if you layer onto that the high level of trust that the 
American public puts in the military, which I think is right, 
but it is much higher than at places in other parts of 
government, and you combine those things along with the 
alacrity of the system with regard to DOD [Department of 
Defense] funding, with regard to even authorization for DOD, 
which I think you all know is--runs quite smoothly every year 
compared to that for other agencies--it's sort of--it's a bias 
inside the system that we just have to watch for. It's not 
malign, necessarily, but it is something to be careful about.
    Senator Fischer. Dr. Cohen, you mentioned the word 
``imbalance.'' We've seen, recently, I think, centralized power 
within the White House--National Security Council and not the 
Pentagon. Yet, some would argue that confirming General Mattis 
is going to, I guess, in their view, continue a growing trend 
of military influence. How would you respond to that?
    Dr. Cohen. I think, in this particular context, not so 
much. I think, in this--in the particular context of the 
incoming administration, the--it is entirely true, more power 
has gravitated to the White House, and more, actually, than I 
think is healthy. I think, because General Mattis is such a 
forceful character, and if the Senate decides to confirm Mr. 
Tillerson as Secretary of State, you will have powerful cabinet 
secretaries. I'm hoping that part of what will happen will be, 
we'll see a little bit more authority going back to the 
Departments, at the expense of a very controlling White House. 
So, I think it may work the other way, actually.
    Senator Fischer. Wouldn't that also reinforce what is the 
role of Congress? If we do have Secretaries who regain--Cabinet 
Secretaries who are able to regain that power that they are 
given, wouldn't that bring more transparency to the agency 
itself, but also to reinforce the role of Congress, when it 
comes to the larger debate of the duties of Congress, when you 
have a Cabinet Secretary who respects and values the 
responsibilities of oversight, of developing relationships with 
committees here in Congress, with coming before committees in 
Congress and being truthful and transparent and open about 
their needs?
    Dr. Cohen. I would say, absolutely. Your ability to hold 
the people you've confirmed accountable is just absolutely 
indispensable to the functioning of our system of government. 
It's going to be more important than ever.
    Senator Fischer. A strong Secretary would do that.
    Dr. Cohen. I believe so.
    Senator Fischer. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Reed [presiding]. On behalf of Chairman McCain, let 
me recognize Senator Warren.
    Senator Warren. Thank you, Ranking Member. Thank you for 
urging us to have this hearing today.
    We've spoken a great deal today about civilian control of 
the military in terms of the President and the Secretary of 
Defense, but I want to raise a broader question about the 
relationship between the military and our citizens as a whole 
which relates to this question about civilian control.
    I come from a military family. All three of my brothers 
serve. But, this isn't as common as it used to be. It's been 
more than a generation since we've had massive mobilization on 
the scale of World War I and World War II and Vietnam. America 
has an extraordinary professional fighting force, the best the 
world has ever seen, but many people in our country are 
disconnected from our military. I think our founders would have 
been surprised by this development. They were deeply worried 
about our country getting tied up in foreign wars, and they 
were especially worried about a President using the military to 
increase his own fame and to perpetuate his own power. That is 
why Congress, not the President, retains important war powers. 
It's also why the founders expected citizens to pay for 
military engagements and to serve in the military.
    Now, Dr. Hicks, I know you also recognize the extraordinary 
skill and professionalism of our military, but, when we think 
about civilian control of the military, are there consequences 
to having wide portions of the population that no longer have 
substantial ties to an active military?
    Dr. Hicks. Senator Warren, I do think there are 
consequences. I think it's a distortion that can play out both 
positively, if you will, and negatively with regard to 
decisions about use of force. I would just say, if I had to 
pick just a few items to focus on, I am concerned that the lack 
of understanding of the long-term cost of conflict is 
exacerbated by individuals in the country being less familiar 
with the military. I think you see that play out, if you will, 
in the longer-term stabilization decisions we've had to make 
over time in the United States.
    Senator Warren. Thank you. You know, when--one of history's 
great military strategists, Carl von Clausewitz, talked about 
warfare, he noted the need to pay attention not only to the 
military and to political leaders, but also to the people of 
the Nation. So, I want to ask a related question about public 
support for decisions about when to use our military.
    If we want to be successful in future wars, do you think we 
need to develop a strategy to get citizens more engaged? If so, 
why? Dr. Hicks? Dr. Cohen? Whoever would like to on this.
    Dr. Hicks. I do think we're facing a crisis on civic 
engagement on foreign and security policy. We have seen, over 
time, a general consensus about what the U.S. role in the world 
is fraying--not breaking, but fraying--and there seems to be a 
lot of confusion and uncertainty. As a matter of fact, two of 
the most recent major polls of the public on foreign and 
security policy, the Pew Poll and the Chicago Council [on 
Global Affairs] poll, use ``uncertainty'' in their titles. It 
just goes to this idea that the public and the elite, if you 
will, no longer are having a constant dialogue about what the 
U.S. role is in the world.
    Senator Warren. Thank you.
    Dr. Cohen, would you like to add anything to----
    Dr. Cohen. Yes, I would.
    First thing, to that immediate point, I would say, in my 
view, it is extremely important that Congress authorize the use 
of military force. I was deeply disappointed that, for our 
third Iraq war and for the Libyan intervention, that did not 
occur. I'm not going to assign blame, I'm just saying, as a 
citizen, I found that profoundly disappointing.
    To your earlier point, I would say that there are a number 
of things that you can do, that we should do. One is simply--
and I'm--by the way, I speak as the father of two 
servicemembers--the first is to get ROTC [Reserve Officers' 
Training Corps] programs out on all kinds of campuses, 
including campuses where they are not--have not traditionally 
been. We're both from Massachusetts, so we know what we're 
talking about there. Even if it's not entirely efficient, to 
have ROTC out there as a presence.
    I also have to say that I think that a lot of the attempt 
to rationalize our base structure didn't help us in this 
regard. Again, I'll speak as somebody from Massachusetts. When 
I was in ROTC, we were always at Fort Devins, trampling around 
in the mud. There was a military presence in New England. 
There's much less of a military presence today. That's not 
healthy. Even if it's not entirely administratively rational or 
economically rational, I think it is very important for people 
to have contact with the military. For a number of reasons, one 
of which is, it's also I'm sorry not to put the military on too 
much of a pedestal. You know, Harry Truman was a great 
President because he had been a National Guard captain, and he 
knew the underside as well as the things that are truly noble 
and inspiring about the military and about military service.
    So, I really worry about it, from--if you will, from both 
ends.
    Senator Warren. Well, I just want to say thank you very 
much. You know, it seems to me that the broader divide between 
our citizens and our military makes it even more important that 
we continue to keep front and center the importance of having 
civilian control over the military.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. On behalf of Chairman McCain, let me 
recognize Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you both today. This has been a very, very 
enlightening hearing, so I appreciate your testimony.
    Dr. Cohen, thank you for your support of ROTC programs. As 
a proud member of the Cyclone Battalion from Iowa State, I 
thank you for that. I do believe that we need more of those 
programs in other areas that aren't maybe as widely accepting 
today. So, thank you very much for that.
    While I still do have many commitments to garner from 
retired General Mattis before I affirm that I will be 
supporting him for Secretary of Defense, I strongly believe he 
understands and respects the importance of civilian control of 
our armed services. I retired just a little over a year ago 
from the military, and I do consider myself a civilian. I view 
retired General Mattis as a civilian also.
    Dr. Cohen, in your written statement, you suggested that 
Congress confirmed George Marshall because the United States 
faced imminent and substantial national security threats 
requiring his expertise. You drew a parallel between things 
that are ongoing today. We have North Korea, we have Russia, 
China, radical Islamic terrorism. What I want to do is add to 
that list. I would also include there a hollowed-out military, 
which is what I believe that we have right now. As a result of 
Obama administration policies, our Army has fewer soldiers, and 
our Navy has fewer ships, our Air Force is flying antiquated 
aircraft. U.S. servicemembers, while proud, are understandably 
anxious. Do you see the need for a strong soldier statesman 
such as--for Secretary of Defense--just like we did in the 
1950s? If so, does James Mattis, like George Marshall, really 
fit into that mold?
    Dr. Cohen. You know, I'm--again, I'll just speak as an 
historian. The buildup of the 1950s was not the work of one 
individual. It was a whole team of quite exceptional public 
servants and great presidential leadership, as well. But, I 
would say that I completely agree with your assessment of the 
situation. I've, in fact, just written a book on the subject. I 
think there is a need for what will probably be a fairly 
substantial expansion in military spending, because we're 
facing quite--a quite diverse set of challenges, perhaps none 
of them as overwhelming as the possibility of a third world 
war--in this case, with the Soviet Union--but our forces are 
not adequate for that right now. So, this is partly going to be 
an issue of resources, but it will partly be the nature of the 
team that is then created to supervise a substantial increase 
in defense spending.
    Senator Ernst. Okay.
    Dr. Hicks, anything to add to that?
    Dr. Hicks. Well, I would just say, I agree that General 
Mattis, if confirmed as Secretary of Defense, could be a very 
effective spokesperson for the requirements of the military. 
Again, to my prior answer to Senator Warren on the issue of 
what's the U.S. role in the world, we clearly have a gap 
between the perception of what we want to be able to achieve in 
the world and what we're willing to put toward it and what it 
requires. I think the strategic man inside General Mattis, if a 
Secretary Mattis, would come forward to help us close that gap, 
which I think many of us would greatly appreciate.
    Senator Ernst. Thank you.
    Dr. Hicks, you concluded in your statement that it is 
appropriate to create a specific exemption, a once-in-a-70 year 
exception to the law for this nominee based on his unique 
qualifications and because of the safeguards in place to 
protect civilian control of the military. You state that the 
ultimate safeguard is the United States Congress. I agree with 
that assessment. But, in light of that, what commitments should 
we garner from General Mattis in order to ensure that we are 
doing our part and our due diligence in vetting him for the 
position of Secretary of Defense?
    Dr. Hicks. I think, first and foremost, is the comment that 
came up earlier in the discussion about adhering to the 
Constitution of the United States, not to any individual 
President or other political official. I think that is first 
and foremost. When General Marshall served as Secretary of 
Defense, it was well prior, of course, to Goldwater-Nichols, 
but it was prior to having a truly strong Chairman of the Joint 
Chiefs of Staff. In statute, I think securing and understanding 
of how he would look at this pretty unique situation of a 
recently retired four-star, and what has been strengthened over 
time as a very centrally powerful Chairman of the Joint Chiefs 
of Staff, how that would operate. Again, that he's always 
bringing his best judgment without bias to his prior Marine 
allegiance, if you will. I know a Marine is always a Marine. 
That would be very important, in my mind, as well.
    Senator Ernst. Very good. Thank you very much, both of you.
    Thank you, Mr. Chair.
    Chairman McCain [presiding], Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Thanks, to the witnesses.
    Dr. Cohen, you mentioned, just a second ago, that you 
believe, based on the current array of challenges in the world, 
we may need an expansion of military spending. I assume you 
believe that the arbitrary budget sequester that has put a cap 
on defense spending as well as nondefense discretionary 
spending is not smart.
    Dr. Cohen. I would say I share the Chairman's view of 
sequester.
    Senator Kaine. Great. Thank you. That view is well known to 
the members of the committee and shared on a----
    Dr. Cohen. That's why I put it that way.
    Senator Kaine.--shared on a bipartisan----
    Chairman McCain. This is----
    Senator Kaine.--view.
    Chairman McCain. This is an R-rated hearing.
    [Laughter.]
    Senator Kaine. Two items. The title of the hearing is not 
just about the waiver for General Mattis, it's testimony on 
civilian control of the Armed Forces. To touch upon two points 
that have already been raised, civilian control over our Armed 
Forces is throughout the Constitution in different ways, not 
just the notion of this waiver, which is not constitutional, 
but statutory, the requirement that we're talking about, but 
also the role of Congress in warmaking powers in article 1. You 
referred to this a second ago, Dr. Cohen. In a book retrospect, 
the former Secretary of Defense Robert McNamara said this about 
the Gulf of Tonkin Resolution, ``We failed to draw Congress and 
the American people into a full and frank discussion and debate 
of the pros and cons of a large-scale military involvement in 
Southeast Asia. It wasn't that we didn't have formal authority. 
We did. The problem wasn't with formalities. The problem was 
the substance.'' Neither the Congress nor the President 
intended that those words would be used as we used them. We're 
in the 15th year of using a 60-word authorization passed in the 
aftermath of the attack of 9/11, stretching it far beyond 
probably what was the original intent in a Congress that is 
nearly 70 percent people who weren't even here to vote on that 
authorization. You talked about your concern about the absence 
of an authorization for current military operations. Isn't the 
congressional warmaking power, the article 1 power that gives 
that decision to the people's elected legislative body, part of 
the framework of civilian control that we are obligated to 
uphold?
    Dr. Cohen. Senator, I think you're absolutely right. There 
are many different aspects of civilian control that--to the--to 
include the fact that the President is the Commander in Chief, 
which is different than other countries do it. I completely 
agree with you on authorizations for the use of military force. 
I think--without wishing in any way to be critical of Congress, 
I think in--on some occasions, it's also been a way of avoiding 
responsibility. It--there's a requirement for Congress to step 
up and say, ``I'm going to vote yea or nay on something like 
that.'' I also think one has to have a certain acceptance of 
the fact that you're going to authorize the use of force and 
then there's a limited extent to which you can predict the way 
that things are going to go.
    But, that was also why I was, in response, I think, to 
Senator Gillibrand earlier, I said, ``It's not just the vote 
about the authorization of the use of military force, it's 
also, you know, over--looking at strategy, getting those kinds 
of discussions going.'' I think that is one of the things I 
would hope you would ask General Mattis about, because I do 
think you should be part of that discussion. You're not going 
to be in the chain of command, but you should be part of that 
discussion.
    Senator Kaine. Dr. Hicks, any additional comments on that?
    Dr. Hicks. I would just agree completely with regard to the 
important oversight role of Congress, and specifically with 
regard to declarations of war and authorization for the use of 
military force. I want to thank you personally for how much you 
have invested in this issue, which I'm sure seems Sysphean at 
times. But, I really do hope, in this Congress, that there can 
be movement forward on a new authorization for these----
    Senator Kaine. Multiple years of effort, I think I've 
managed to persuade two or three people on this, but I'm going 
to keep trying, because I think it matters.
    [Laughter.]
    Senator Kaine. It matters.
    A second issue dealing with civilian control--and this 
touches upon questions that Senator Fischer asked--is the role 
of congressional oversight--budgetary oversight, the 
confirmation of a Secretary of Defense. We did some reforms in 
the most recent NDAA [National Defense Authorization Act] to 
reduce the size of the NSC [National Security Council] 
operation. We don't confirm the National Security Advisor. We 
have less oversight over the NSC operation as we do over the--a 
Secretary of Defense and a Pentagon. I actually would like each 
of you to comment upon the relationship between the NS--
National Security Advisor and the NSC and the Secretary of 
Defense and what you think the right balance in that 
relationship should be in connection with this question of 
maintaining appropriate civilian control through the civilian 
elected Congress over military operations.
    Dr. Cohen. You know, I would just say that this is really 
one of the most delicate and complicated questions of this kind 
one can deal with. So, I suppose my position would be, first, 
that, you know, the President really does deserve to have the 
staff that he or she wants, who are organized in the way that 
suits him or her best, and that they think are most effective.
    Secondly, I have my own views about how a--having seen a 
bunch of National Security Advisors up close, there's a certain 
way that they should do their business, that they should not be 
understood to be principals, in the sense that a Cabinet 
Secretary is. The NSC staff should not be operational. It is 
largely a coordinating function. It is staffing the President 
of the United States. I think there may be something more to be 
gained by making sure that the functions of the NSC staff, 
rather than its particular size and so forth, are appropriate. 
I mean, I get very anxious when National Security Council 
staffers begin negotiating treaties with other countries. 
Again, speaking as an old State Department guy, that's really 
wrong. That should not happen.
    Chairman McCain. Not only negotiating, but deciding rules 
of engagement in faraway places.
    Senator Kaine, I appreciate very much your advocacy on this 
whole issue, that you have been, sometimes, a voice in the 
wilderness, but you've also been absolutely correct. I know 
Senator Reed would like to work with you. Perhaps one of the 
ways to try to address this issue would be to have a hearing or 
two on this issue. Because, certainly, Congress has not 
exercised its responsibilities in conflicts that are going on 
throughout the globe. So, I thank you for raising that issue. I 
thank you for your continued tenacity. I want to commit to us 
making this a priority for this committee in the coming year.
    Senator Kaine. I appreciate that, Mr. Chairman.
    Chairman McCain. I thank you.
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman.
    I agree with both of you in your testimony and comments so 
far in preparation for today. I think this is an extremely 
important tenet, one that we should strive to uphold, going 
forward. Any exception to it should be taken very, very 
seriously. So, I appreciate your comments on that.
    Having said that, I agree with you, also, that I think 
we're facing a very unique and dangerous global security crisis 
today. I can't compare it to 1950. It's different. They didn't 
have cyberwarfare back then. They didn't have a nuclear North 
Korea. They didn't have an arms race in space. I think the need 
for integration between diplomacy and development and military 
capability has never been greater or more complicated. Because 
of that unique circumstance, I think, like General Marshall, 
General Mattis offers us a unique combination of skillsets and 
mindsets that make him an ideal candidate for right now, with 
certain cautions that you both have laid out.
    Having said that, and having broad experience from the 
Foreign Relations Committee here, I'm very concerned about the 
relationship between diplomacy and development debates inside 
the Cabinet room between two military officers when it's a 
military option or a diplomatic option. Could you both speak to 
that with your personal experience of General Mattis?
    Dr. Hicks?
    Dr. Hicks. I'll begin.
    I think you're right to have that concern, particularly, if 
I may, on development. It--the last 15 years of war, I think, 
have brought home, more than ever before, to members of the 
military the importance of development, or the role--maybe more 
precisely said, the role it plays. But, your average officer, I 
think, still maybe doesn't fully understand the role of USAID, 
in particular.
    That said, I do think General Mattis, through his--both his 
role--well, his variety of roles, but particularly the roles as 
the head of U.S. then-Joint Forces Command, looking broadly at 
the future and at the integration of the military with other 
instruments of power, and, of course, as the Commander of U.S. 
Central Command, where a region, like many others, where you 
absolutely have to understand how these pieces integrate 
together, is critical. I think he will have a deep appreciation 
of the need for development and diplomacy experts that are 
nonmilitary.
    Dr. Cohen. I guess I would have a couple of thoughts.
    The first is that, it seems to me it's very rare that one 
has a choice between a military and a diplomatic option. The 
choice is much more likely to be diplomacy of one kind, backed 
by a military option, or diplomacy of a different kind, maybe 
not backed by a military option. Therefore, what matters most 
is actually the cooperation between the State Department and 
the Defense Department.
    I was very privileged to serve, along with Senator 
Sullivan, under Secretary Rice, and to see the exceptionally 
close relationship that she had with Secretary Gates as 
Secretary of Defense. You know, anybody who is in an 
administration tends to feel that way, but I thought I was 
seeing an exceptionally close integration of diplomacy and 
military power. I think that's really the model. So, I think 
the question might be more to General Mattis, if he's Secretary 
Mattis, with the Secretary of State.
    Senator Perdue. Dr. Cohen, you had mentioned that, you 
know, we're not the first ones to do this as a country. I mean, 
certain countries have done this, historically, and some not so 
very well. You've called that out in your writings. Would you 
relate to us just a little bit about the cautionary comments 
that you've made about that, relative to other people's 
experience, other countries' experience with doing what we're 
talking about doing today, but also talk about the unique 
character of Dr. Mattis and why this might be a unique 
situation?
    Dr. Cohen. Well, let me start with General Mattis. I--for 
me, what I find myself focusing on is not just the experience 
and the expertise, and so on; it is fundamentally my judgment 
about his character and his judgment. That's why I think it's 
very unfortunate people have used the phrase ``Mad Dog.'' I've 
never heard anybody in the uniformed military refer to him as 
that. That is not what he is like. This is an extremely 
thoughtful, careful, prudent man. I think that's--that is a 
tremendously important thing.
    To speak to the history of civil-military relations, the 
fact is, say, if you look at the French or the Germans, or even 
the Russians, the--when you begin to have retired generals as 
Ministers of Defense or Ministers of War, you are setting up 
the kinds of tensions and problems and blurring that we talked 
about, and the kind of isolation of the military from normal 
politics. In some ways, this is what has happened in Israel, 
which is probably, for us, the most interesting case, because 
it is a liberal democracy. But, I know that country pretty 
well. There is a serious problem with the politicization of the 
senior officer corps, there is a serious problem in 
distinguishing between the military advice of the serving 
Chiefs of the General Staff and a Minister of Defense, who, 
only a couple of years before, was a general officer. In fact, 
what's interesting is, the Israelis are--have introduced, and 
they've actually recently increased, their own time gap between 
when you can take off the uniform, when you can run for public 
office and serve in those kinds of positions.
    Senator Perdue. Thank you, Mr. Chairman.
    Chairman McCain. Senator Peters, welcome again to the 
committee.
    Senator Peters. Thank you, Chairman McCain. It's a pleasure 
to be here and to serve.
    I'd thank our witnesses today for your testimony, both Dr. 
Hicks and Dr. Cohen. Thank you for addressing this very serious 
issue.
    Just to pick up on Senator Perdue's comments about the need 
to make sure we're balancing military options with diplomatic, 
economic, the full range of power that can be projected around 
the world--soft power in addition to hard power--I think it's 
important to remember the last time we did grant this waiver, 
the--General Marshall, the--in addition to his extensive 
military experience, also served as a Special Envoy to China, 
was the Secretary of State and president of the American Red 
Cross. So, quite a diverse background, something that we're not 
looking at right now, despite all of the qualifications of 
General Mattis, but certainly a very rounded background, going 
into that position.
    But, I'd like to turn to the book that General Mattis 
edited, which I think both of you have referenced. In that 
book, ``Warriors and Citizens,'' he has a chapter from Dr. 
Thomas Owens, who's a professor at the Institute of World 
Politics. It's entitled, ``Is Civilian Control of the Military 
Still an Issue?'' which raises the prospect if that's even 
something we should be thinking about.
    Dr. Owens writes that civil-military relations can be seen 
as a bargain. I'm going to quote from his writing here, ``There 
are three parts to the bargain: the American people, the 
government, and the military establishment. Periodically, the 
civil-military bargain must be renegotiated to take into 
account political, social, technological, or geopolitical 
changes.''
    So, my question to both of you, first, is, Do you agree 
with that assessment, that, basically, as we're discussing the 
civil-military relations, that this is, basically, a bargain 
between the people, the government, and the military?
    Dr. Cohen. No, I do not.
    Senator Peters. Why is that?
    Dr. Cohen. Because the principle is civilian control of the 
military, full stop.
    Senator Peters. Ms.----
    Dr. Hicks. I agree with that. I do think there is this 
issue of how, exactly, it manifests, again, in any given 
environment. An example would be that the particular statute 
that we're discussing now did not arise until 1947. I think, in 
large part, it arose--and there are a variety of reasons, but a 
large reason it arose is because we had come out of two world 
wars, we had seen militarized societies and their effects, and 
we were facing the prospect, which we still have, of a much 
larger and very capable standing military. The exact structure 
of how we operationalize civil-military relations changed in 
that context.
    I do think that has been true throughout the history of the 
United States, of course, which is, we maintain the principle, 
and the particular way--just as this waiver would be, the 
particular way in which we judge what it requires to be healthy 
at a given time is assessed at that time.
    Dr. Cohen. If I could, you know, the patterns clearly do 
change, but the word that I would really push back at is 
``bargain,'' as if it's a deal that gets cut between different 
segments of society. I think that's not the way our 
Constitution was intended to operate.
    Senator Peters. Well, thank you.
    Later in his book--and this--that--the quote that I had was 
from a different author; it wasn't General Mattis--later in his 
book, General Mattis writes--and I'd love to have your comments 
on his thoughts on this issue--he writes, ``If there is a 
contemporary departure from the American norm, it is that 
military commanders are more, not less, hemmed in by political 
leaders, because the wars we are fighting are more removed from 
everyday experience of most Americans.'' He goes on to say--
this is his writing again, quote, ``The combined effect is 
worrying, since elites without military experience alienated 
from the advice offered by the military are more likely to use 
military force ineffectively. We believe we have been seeing 
exactly this in American national security policies over the 
last dozen years.''
    Your response, please.
    Dr. Cohen. I'm not sure I would agree with that. I mean, I 
understand it as a point of view. I think there has undoubtedly 
been a fair amount of friction, particularly in the last eight 
years, but there was friction in the--during the Bush 
administration, as well.
    I think, you know, sometimes people like to think that 
there was a halcyon period, where generals and politicians got 
along very well. There wasn't. Again, I'm essentially a 
military historian. I can give you chapter and verse on that if 
you like. I--we--that is why I said in my statement that a 
certain amount of tension is the norm and is actually a healthy 
thing. But, I don't think I really, fully believe that.
    I mean, look, the biggest 20th-century blowup in our civil-
military relations was between President Truman and General 
MacArthur. President Truman had an outstanding war record in 
the first World War as a National Guard battery commander.
    I would like to add just one thing. Having edited a bunch 
of books, I've stopped doing it, because you can't really 
control what the people in the book are going to say. I'd 
rather just say what I'm going to say. So, I wouldn't hang 
General Mattis with what some feckless author has put in there. 
You--it's--you have much less control than you might think.
    Senator Peters. Well, but let me be clear, the last two 
quotes that I read were General Mattis.
    Dr. Cohen. Yes. No, I understand. I was----
    Senator Peters. Right.
    Dr. Cohen.--referring to the previous quote.
    Senator Peters. The previous one, right.
    Dr. Hicks. I, basically, agree with Professor Cohen. I 
would simply say, again, it's always hard to take quotes and 
assess them, but my recollection of that portion of his essay 
with his coauthor, Kori Schake, was--the context was also about 
this issue, again, of the societal removal, the one percent 
issue. I do think, again, it--that has effects. It distorts how 
we think, sometimes, about military force. It doesn't mean it's 
more likely we use it, which I think is more the implication, 
perhaps, of that passage, or we're less likely to use it. I do 
think it means that the more distant citizens become from their 
understanding of, if you will, the profession of arms, the more 
dangerous that is for us, because we remove ourselves from very 
real understanding of what the implications of use of force 
are.
    Dr. Cohen. If I could, you know, there--I think there are 
other sources of tension, as well. People may conflate them. 
So, for example, simply the fact that anything that happens is 
instantaneously visible around the world--and when I'm--say 
``visible,'' I mean on YouTube--and, therefore, is a big deal, 
does mean that there's going to be more political attention. 
So, when you have an Abu Ghraib, it's not something that comes 
out, you know, a long time later and there are no photographs; 
it's right there in front of you, and it has real 
repercussions.
    I also think some of this has to do with the nature of the 
particular wars that we've been fighting, which, in a variety 
of ways, are--have been conducive to civil-military tension. 
So, I think--I may agree with the diagnosis of the phenomenon. 
I might have a somewhat different analysis of some of the 
causes.
    Senator Peters. Thank you.
    Chairman McCain. You've exceeded your time, Senator Peters.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Part of the discussion earlier had to do with whether or 
not we were losing contact between the civilian and military 
members. I would just suggest that there are some areas where I 
just don't believe that that has happened. One area is with 
regard to the National Guard. All you have to do is to attend a 
single deployment ceremony or a welcome home ceremony or a 
funeral and you'll see that, when you mobilize the National 
Guard, you mobilize the entire community, and there is clearly 
a connection there which has not faded.
    I think one thing that leads to that is, is that--that 
very, very close connection, where these folks are maintaining 
their relationship with their families and with that community, 
and folks see them actively involved, but they also see the 
sacrifice of the family, as well. Sometimes I suspect that our 
military members that have family back here, that sacrifice 
that those families make is probably not as evident in their 
local communities as it is when you recognize the Guard.
    Let me just ask a just a couple of quick questions. I don't 
mean to split hairs, but we've talked a lot about the 
comparisons between General Marshall and General Mattis, and 
about the connectivity between the two, the similarities and so 
forth. Can I ask about what you see as the differences between 
the recommendation--the nomination at that time and the 
nomination that we have before us to date--the differences 
that, in your study and your review, that you've found, that 
you would point out to us.
    Dr. Cohen. Before I do that, let me just--on your point 
about the National Guard, I completely agree, but I think there 
are many dimensions to that issue, and it's--seems to me it 
would be a good thing for our country if our business leaders, 
our academic leaders, our leaders of nonprofits also had family 
members or people that they knew who were serving, and that has 
other kinds of implications for how we go about recruiting 
people.
    There are a number of differences. Obviously, General 
Marshall had--his military experience is different. He had--he 
was not a combat commander, as General Mattis most definitely 
has been. He was one of the masterminds of this great coalition 
effort. He had served as Secretary of State. I think that's 
tremendously important. A very effective Secretary of State for 
two years.
    Conversely, I think one does have to point out, General 
Marshall was quite a sick man when the waiver was made. I think 
historians think that he was an extraordinarily effective 
Secretary of Defense, partly--I believe he had lost a kidney by 
then. He was in for about--he was in for about a year. So, 
General Mattis, I think, is a much more vigorous type, and 
that's actually nontrivial, I believe.
    So, those, it would seem to me, would be the largest 
differences that you're dealing with. You know, General 
Marshall, finally, did have--he had one enormous challenge. 
That was, of course, dealing with General MacArthur with--whom 
he did not like, but who he tended to respect as the guy who 
was in charge out in the Far East. MacArthur was a very 
different kind of problem that--Mattis is not going to face any 
MacArthurs out there.
    Dr. Hicks. I would add just two other factors. One relates 
to what Eliot just said, that, you know, he--he served a very 
short period of time. In fact, it--all evidence points to the 
fact that that was a prearranged agreement, that he would only 
serve for a limited period of time. He was essentially helping 
the President out, if you will, in a case where he had, I 
think, as you referenced earlier, a Secretary of Defense who 
was not working out for him. So, this was a way to transition 
with a very popular--politically, publicly popular figure, in 
the case of General Marshall. You can parse how much of that is 
similar and different in this case, but it is the fact that it 
wasn't his out-of-the-gate Secretary of Defense, it was a--more 
of a transitional approach.
    The other thing I think bears in--repeating is that General 
Marshall, as best I recall, had come out--he had gone back into 
an Active Duty an status, so he was extremely recently retired 
just before taking on the position.
    Dr. Cohen. He was actually technically not retired, because 
the way it worked, if you're a five-star general, which is what 
he was, was that you never retire. So, a lot of the discussion 
and the testimony is about, What do we do about his pay? I 
mean, what--the lofty issues were addressed, too, but some of 
it was pretty mundane.
    Senator Rounds. Thank you, Mr. Chairman.
    Chairman McCain. Senator King.
    Senator King. Thank you, Mr. Chairman.
    Dr. Cohen, first, you mentioned a few minutes ago that you 
were reluctant to be critical of Congress. I don't know why you 
alone, among all the citizens of this country, should feel any 
reservations on that front.
    [Laughter.]
    Senator King. I would suggest that--yes, that's right.
    I also have to point out--a statement was made earlier 
about President Obama eviscerating the military or hollowing 
out the military. Again, this was--the budgets for the military 
come out of this body, and we impose limitations that the 
President's budgets reflect. So, again, I think we don't want 
to avoid responsibility for our role, either historically or on 
a going-forward basis.
    The other point, it seems to me probably one of the 
greatest challenges to civilian control of the military 
occurred in the election of 1864, when George McClellan, one of 
the leading generals of the Union Army, ran against the 
President of the United States. Lincoln, himself, wrote his 
wife, in August of that year, saying he was likely to lose that 
election, and probably would have, other than for Sherman's 
taking of Atlanta in September, shortly before the election. I 
apologize to the Senator from Georgia for raising that 
difficult point.
    [Laughter.]
    Senator King. When I was a small-town lawyer in Maine, one 
of the principles we used to discuss was, ``Hard cases make bad 
law.'' Cases that are very appealing on the merits that--widows 
and orphans and other kinds of difficult issues, you end up 
creating precedents that are bad law. That's what I'm 
struggling with in this case. I think that's exactly what we're 
talking about here.
    I have decided to support this amendment, because I don't 
think it will make bad law, because of the narrow way that it's 
drafted. I think it's important--we haven't discussed the 
specific language, but the language is, ``This section applies 
only to the first person appointed as Secretary of Defense as 
described in subsection (a) after the date of this Act, and to 
no other person.'' That means it can't even be used by another 
appointment of this President. It is an extremely narrow 
precedent. The precedent was broken, if you will, 70 years ago, 
hasn't been broken since. I'm comforted by this language. I 
suspect that, if a future occasion of this nature arises, 
number one, there's no statutory basis for providing an 
automatic exemption; we will have a hearing like this. It will 
be decided upon the facts of the case, just as you both have 
suggested today.
    Mr. Cohen, would you agree with that analysis?
    Dr. Cohen. Yes. But, I would add to that that I--it seems 
to me it's very important that the committee and the members of 
it make very clear the principles that they--that are guiding 
them, and how they think about the law, going forward, so that 
there's a record. You know, in the same way that I think both 
of us looked at the record of the testimony in the Marshall 
case, that people will go back and look at the record, and, 
most importantly, look at the things that you Senators said at 
the time, to help them think this through.
    If I could, just--you know, I figured I had taken a swipe 
at the Obama administration, I've taken a swipe at the Trump 
administration. Taking on Congress, too, just seemed to be a 
little bit too much, even for me.
    [Laughter.]
    Senator King. The other subject that's come up today which 
I think is important is the danger of a development of a 
military case cast. I was discussing this recently with a high-
ranking officer in charge of personnel who indicated that 
something over 80 percent of the current servicemembers come 
from military bloodlines or from military families. I think 
that is--and he said, ``That's a dangerous situation, because 
we don't want our military separated from the society.'' When 
we made a decision about all-volunteer service, that created a 
professional military. I completely concur with the idea of 
broadening ROTC and broadening recruitment efforts so that we 
don't have a separate group that feels separated from the rest 
of the society, particularly the civilian government.
    Dr. Hicks, your thoughts?
    Dr. Hicks. I completely agree with that. I'm from a 
military family, myself. It is a way of life, and it can seem, 
I think, for those who haven't lived it, extraordinarily odd 
and nomadic in nature. I think it's dangerous when we start to 
look at folks from military families as sort of a self-
perpetuating cone of future military service, and the rest of 
society going about its business differently. So, I do think 
that's a danger.
    Senator King. It also makes it too easy for the rest of 
society--meaning Presidents and Congresses--to talk about wars 
and deployment of troops if there's no widespread of--element 
of sacrifice.
    Dr. Cohen. If I could, I think that's true, but I would 
also just caution that, as you go forward with this, the 
military personnel bureaucracies will not be on your side. You 
know, the easiest, the most efficient thing, from their point 
of view, is--go to those parts of the country or to those 
universities which have massive ROTC programs that they can 
bring in, obviously, from--they--I mean, I've had these kinds 
of discussions with people--they--if you look at, say, efforts 
to try to get ROTC back on the Harvard campus, the opposition 
was not from President Larry Sommers. The opposition was 
actually from the United States Army. I hate to say that, 
having been a former--having been an Army officer at one time. 
But, it was--they just thought it was too much of a pain in the 
neck, ``We'd have to deal with the Harvard faculty, wouldn't be 
that high a yield of officers, blah, blah, blah,'' and 
completely missing this larger point of the connection--having 
a connection between people who wear the uniform and people who 
are going to end up in positions of leadership in other sectors 
of our society.
    Senator King. Thank you.
    Thank you both for your excellent testimony.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    I appreciate the outstanding testimony. Professor Cohen, I 
want to thank you for your service to our Nation. As usual, 
your testimony is very insightful and helpful.
    You know, just as someone who served as a Marine Corps 
staff officer to the CENTCOM [United States Central Command] 
Commander and then later as an Assistant Secretary of State, I 
can--I certainly agree with your sense of the imbalance between 
DOD resources and the State Department, which I think we need 
to look at. But also, I think it's helpful in this discussion 
on ROTC. I certainly hope that all universities will heed the 
call to establish ROTC programs.
    You know, Senator Warren was talking about this issue. 
Where she taught and where I went to college, you just name the 
university, where I--when I went to Harvard, the Spartacist 
Youth League, which was a organization for young Communists, 
was allowed to meet on campus, but if you wanted to be part of 
the ROTC, you were not welcome. I think that was an 
embarrassment. It took 40 years to get ROTC back after it was 
kicked off the campus there. The opposition was the professors 
and the faculty, who were extremely anti-military. I think we 
should be looking at all universities that continue to ban 
ROTC, and penalize them. So, hopefully, we'll continue to focus 
on this.
    You know, there's a lot of talk about 1950. You're both 
historians. Let me just ask the basic question. In a historical 
context, is that waiver now viewed as something that was in the 
U.S. interest? Is it--do most historians agree on that?
    Dr. Cohen. I think people understand why Truman did it. I 
mean, Johnson was really a very dysfunctional Secretary of 
Defense. Everybody hated him. He was clearly not the right guy 
to supervise a substantial buildup. There was a bit of a whiff 
of desperation about this. I think the general consensus is 
that, although Marshall did some good things as Secretary of 
Defense, you know, he was not--does not go down as one of the 
best Secretaries of Defense, by a long shot.
    Senator Sullivan. But, the historical record's not widely 
critical of it, is it?
    Dr. Cohen. No.
    Senator Sullivan. Are the analogies that many of my 
colleagues have raised today about, you know, Senate--or Dr. 
Kissinger testifying before the committee last year about the 
world--the United States not facing--you know, hadn't seen this 
many crises since the end of the World War II. Some of us are 
concerned about a hollowed-out Army. Are those--and the 
character and reputation of General Mattis--are those 
historical analogies apt when you look at 1950 and General 
Marshall?
    Dr. Cohen. I think they go a little bit too far. I mean, 
the United States military was in much worse shape in 1950. You 
know, if you know the history of the Korean War, it is a pretty 
sorry tale, with a few exceptions in that first year, as we 
were putting ourselves back together. I think the overall sense 
of threat was much greater, because, you know, again, there 
really was this chance that you'd have World War III. So, it's 
not----
    Senator Sullivan. Can I ask you--and let me just--sorry to 
cut you off, but--let me ask about kind of a question that 
relates to the Korean War. You know, there's a conventional 
wisdom--and we've heard it today, we've heard it in the media a 
lot on this issue--that there's a growing trend of military 
influence in our government. But, is that really the case? Let 
me give you a couple of counter-examples.
    With the incoming Trump administration we'll have now, 
three out of the last four Presidents will have not served in 
the military. Much of the Obama White House staff never served 
in the military. Congress now has 20 percent veterans. In 1971, 
it was 73 percent veterans. In your view, can this create 
situations where important military matters are not well 
understood or emphasized by civilian leaders?
    Let me give you one that relates to the Korean War. That's 
the issue of rigorous military training. Very, very difficult, 
hard, dangerous military training. I think sometimes people 
aren't comfortable with that. I think sometimes Members of 
Congress don't understand it. When you don't have military 
training, you end up with, you know, situations like Task Force 
Smith in the Korean War. General Mattis certainly understands 
that. I've talked to him about it. But, do we risk, when we 
don't have much military experience in our civilian government, 
that other leaders don't understand what Task Force Smith is? I 
guarantee you a lot of the members of the Obama White House 
right now don't even know what I'm talking about. Isn't that an 
issue that we should be concerned about, as well, rigorous 
military training and having people who actually understand 
those kind of military issues through their own military 
service, which is increasingly less and less in our civilian 
government?
    Dr. Hicks. Senator Sullivan, I--first of all, I think 
military readiness and training is a major issue. I do know 
what Task Force Smith is. But, I do not believe you have to 
have served in the military in order to have knowledge and 
appreciation of the profession of arms. Is it different than 
serving? Absolutely.
    Senator Sullivan. I'm not talking knowledge and appreciate, 
I'm talking about rigorous military training.
    Dr. Hicks. Understand. Again, I do think--as I said before, 
I do think there's a distortion when you have a society that's 
becoming less familiar with the military, that has had less 
service in the military. I think it's a problem when there is 
distrust between the military and civilian leadership. I think 
we can point to instances both in the current administration 
and in the Bush administration and throughout history where 
that has--those tensions have moved from helpful to unhelpful. 
But, I--the only thing I'm going to say--and obviously, it's 
biased, because I have not served in the military, but I have 
dedicated my entire professional life to the Department of 
Defense and service--that I do not think you have to have 
served in the military in order to be an effective civilian 
leader in military affairs.
    Dr. Cohen. I completely agree with Dr. Hicks on that. I 
don't think prior military experience makes any difference to 
those kinds of things. You know, they're--again, we can have a 
long discussion about the history of training in the United 
States military. They had to completely overhaul our training 
in the middle of World War II, which was completely in the 
hands of the United States Army. It was partly because they had 
had no combat experience, and they found themselves having to 
change things.
    Our greatest Commander in Chief was a man with zero 
military--or almost zero military experience: Abraham Lincoln. 
The other competing Commander in Chief, Jefferson Davis--
distinguished war record, chairman of this committee's 
predecessor--he was a terrible Commander in Chief, luckily. So, 
I don't think that, per se, military experience is what 
matters, although I think it's a good thing.
    The fact is, we're not going to get it back. You know, in 
1971, the World War II vets were still around, and dominated 
Congress. Well, that's not coming back. I think we have to 
accept that and find other ways of doing with it.
    But, I very much agree with Dr. Hicks, it's important not 
to denigrate people who have not served, for whatever reason.
    Chairman McCain. Could I say, Dr.--both doctors--I totally 
agree. Some of the challenges we face in the military today, 
particularly the much needed reforms in acquisition and other 
areas, require talents that have nothing to do with the 
military. I agree with you, some of our finest leaders have 
not--it should not be a requirement.
    Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you, to both of our panelists, for your testimony and 
for your thoughtful and pragmatic approach to this issue. 
Because I think this is an issue that it may not be helpful to 
be doctrinaire on.
    You know, I totally agree with the statements that have 
been made that it's important for the country to have skin in 
the game when it comes to military engagement and conflict 
around the world. As a--someone who came of age during the 
Vietnam era, I very clearly remember the debate over draft 
versus a volunteer--All-Volunteer Army. I think some of the 
ideas about what would happen at the time have not proved to be 
accurate, and we have a very professional, very well-trained 
military. But, it's only about one percent of the population 
who actually have skin in the game, and that that's not healthy 
for the long-term future of the country.
    Now, having said that, I want to pick up on the comments 
you just made, Dr. Cohen, because, in 2002, for the Washington 
Post, you wrote an article called ``Hunting Chicken Hawks,'' 
where you made the point that I think you've just made, which 
is that there's no evidence that generals, as a class, make 
wiser national security policymakers than civilians. So, I 
wonder if you can talk a little bit more about that, beyond 
just Lincoln and Jefferson Davis, and what you've seen that 
makes you come to that conclusion.
    Dr. Cohen. Well, it's a result of, basically, being a 
military historian. I--you know, if you look at things like the 
Vietnam War, where there have been some very interesting books, 
including one by my friend H.R. McMaster, ``Dereliction of 
Duty,'' all about the Joint Chiefs not standing up to Robert 
McNamara, my reservation about the book--and I've talked to 
General McMaster about this--is, it's not like they really had 
a better idea. I mean, when you really press into the history 
of the Vietnam War, did they have a different conception which 
would have allowed us to achieve our national objectives?
    You know, this is why in my book, ``Supreme Command,'' I 
talk about an unequal dialogue. It has to be a dialogue. It has 
to be give-and-take. At the end of the day, the civilians are 
responsible, the civilians are accountable. The military 
absolutely has to be heard, and they have a duty to speak up. 
But, it--it can only be forged in a dialogue. I think the--we 
have to be very careful in our understanding of, What is the 
nature of military expertise? Because when you go to war, 
you're trying to use force to achieve political purposes. I--if 
I might, I'd say one other thing, which is, I do think it's 
important to have skin in the game. Speaking as someone who had 
skin in the game, you know, I was in favor of the Iraq War, and 
my son went off and fought in it twice. I would have been in 
favor of it in exactly the same way, I think, if he hadn't made 
that decision entirely on his own, actually before 9/11, to 
join the service. It does affect how you think about things. It 
affects how you think about the political leadership. It 
affects about how you hold them accountable. But, I think, if 
you're a serious individual, I don't think it actually changes 
how carefully you weigh decisions about sending young men or 
young women into harm's way.
    Senator Shaheen. So, I think the argument that I find most 
persuasive, that you make, Dr. Cohen, and, to some extent, you 
also made it, Dr. Hicks, about why this waiver at this time 
might be appropriate, is because of your comments that a 
Secretary Mattis might be a stabilizing and moderating force 
preventing stupid, dangerous, or illegal things from happening 
in the incoming administration. So, with that in mind, I want 
to ask you a little bit more about an issue that Senator Perdue 
raised with respect to the interaction between the National 
Security Council, under former General Flynn, and the 
Department of Defense and how policy might get made with that 
kind of interaction.
    So, do you have any insights, either one of you, into what 
we might expect and who we might expect to come out on top in 
those kinds of debates about what policy should be?
    Dr. Hicks. Senator, I would be foolish to predict what is 
going to happen here. I think, in any administration, you see, 
in the first 9-plus months, for really the cycle of Congress, 
some shaking around, if you will, inevitably in every 
administration; and there is a particularly combustive 
combination, potentially, in this set of factors we have coming 
in, in a few weeks. So, I can't predict what that will look 
like.
    I do want to add to the very good comments that Professor 
Cohen made earlier with regard to this issue of the National 
Security Council's role and the President's ability to choose 
his own staff, that it's always important for the Secretary of 
Defense, of course, but also throughout the national security 
system, to remember that the National Security Advisor is not 
in the chain of command. That sounds so very straightforward, 
but, in the day-to-day actions inside an administration, it can 
become confusing about whether that National Security Advisor, 
to use Professor Cohen's words, is a principal or not.
    Certainly with regard to where orders come from, how they 
are communicated--is it from the President, is it from the 
National Security Advisor?--I think that tension, which, again, 
is present in many administrations, will play itself out here, 
and we will see what the answer to your question is very soon.
    Dr. Cohen. Once again, I agree with Dr. Hicks. You know, 
you--it seems--I also have no idea what this will turn into, 
but, from what I've read of the President-elect's 
decisionmaking style, he likes to have lots of competing power 
centers competing for his ear, and jockeying around and 
bouncing into each other. My personal preference is for orderly 
processes, but, then again, I'm not President, so I don't get 
to make that decision. I think there will be a lot of pushing 
and shoving.
    Senator Shaheen. Thank you both.
    Chairman McCain. Senator Nelson.
    Senator Nelson. Flynn versus Mattis and Kelly. That's going 
to be an interesting tension. A three-star versus two four-
stars. But, the three-star has the President's ear daily. You 
want to comment on that?
    Dr. Cohen. I think you summarized it very well. It is one 
of the arguments, in the long run, for not having retired 
general officers in these--you know, in a position like 
Secretary of Defense or even possibly as National Security 
Advisor, because they never forget their rank. I have yet to 
meet a General who says, ``Please, just call me Bob.'' Well, 
that's not entirely true, but their--you know, their rank 
carries with them after they retire. That's just a 
psychological fact that you cannot get around.
    Senator Nelson. Dr. Hicks, you used the term ``self-
perpetuating cone of military service.'' That's going to occur 
as long as we don't have a draft, isn't it?
    Dr. Hicks. Well, I don't necessarily think that's true. I 
certainly don't recommend a return to a draft. I do think, 
inevitably--we don't need a military, let's say, two to three 
times the size it is now. I think most people would agree with 
that. So, we're not really looking to vastly grow the size of 
our military; and thus, the percent of the population. It 
really gets back to the issue of, Is it all occurring--is all 
that recruitment and accession occurring within a population 
that's never changing? That's not healthy, if that's true.
    It goes back to some of the issues about looking for new 
pools of interest. That obviously can relate to opening up, for 
instance, positions to women, looking at areas like cyber, new 
skillset areas, where different types of people, maybe, would 
be attracted to service than have been before and that we need.
    So, I think there are a variety of ways to get at this 
issue. I don't think there's a single solution. It's certainly 
not the draft.
    Dr. Cohen. Dr. Hicks said it better than I could.
    Senator Nelson. Dr. Cohen, you gave the dramatic example of 
civilian control of Truman over MacArthur. Can you think, in 
history of the country, any examples in reverse, where the 
military has actually overcome the civilian control? Maybe 
other countries. But, you----
    Dr. Cohen. Oh, I mean--yeah, but that--well----
    Senator Nelson. Not a dictatorship, a democracy. You 
mentioned the situation in Israel.
    Dr. Cohen. Well, you know, the most effective Israeli 
Minister of Defense was also the Prime Minister, David Ben 
Gurion, who leveled out as a junior corporal in the British 
Army, I think, over a period of about three months in World War 
I. I think anybody who knows anything about Israeli military 
history knows he was far and away the most effective Minister 
of Defense that they ever had. He's really the guy who built 
the Israel defense forces.
    Whereas, conversely, let's say, if you look at the Yom 
Kippur War, Moshe Dayan, great military hero, in many ways got 
in the way. It was Prime Minister Golda Meir who ended up being 
a much more effective strategic decisionmaker, working with the 
chief of staff. So, I'd say Dayan in the 1973 war is a pretty 
good example of that.
    By and large in the United States, you know, the civilians 
always win. Not--but not without, occasionally, some serious 
pushing and shoving.
    Chairman McCain. ``An American Caesar.''
    Senator Nelson. Yes.
    Dr. Hicks. May I just simply add--I want to answer that 
question a different way than I'm sure you intended it, but--it 
bears stating here that there are heavy political costs 
sometimes for exercising that civilian control of the military. 
The MacArthur case is a good example. MacArthur was very 
popular. Truman was very much not popular. He returned, after 
being fired, to tickertape parades. Truman didn't seek an 
additional term in office. In fact, the next general was 
Eisenhower, who had been an aide to MacArthur. So--and I think 
you could even look at the McChrystal issue more recently and 
the sort of--the--where the political or the public weight of 
approval of the military may be very strong, and, even when 
civil-military analysts look at it and say, ``Yes, these are 
good cases of exercising civilian control,'' there can be a 
significant political cost to pay for that.
    Senator Nelson. What was the cost that the President paid 
in firing [General Stanley] McChrystal?
    Dr. Hicks. Well, I think that will be left to historians, 
but my view is that there is a lack of trust between the 
military and the Obama senior leadership, as Senator Sullivan 
said, and particularly in the White House. I think, you know, 
to the extent that that might have further fueled that sense of 
distance, I think that's a possibility. But, I haven't seen any 
actual historical reporting on that.
    Chairman McCain. Senator Blumenthal has arrived.
    Senator Blumenthal. I wish that were true. Thank you, Mr. 
Chairman.
    [Laughter.]
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to thank the Chairman and the Ranking Member for 
holding this hearing, because civilian control over the 
Department of Defense and the military in general is really a 
bedrock principle, one of the founding principles of this 
democracy recognized from the inception of our great Nation. I 
have deep respect for General Mattis and his service to this 
country, having met with him over numerous years and having had 
the benefit of his advice and insights over my service in the 
United States Senate.
    We're here today to discuss, in general, the issue of 
civilian control over the military and how that principle is 
served, or not, by his appointment. But, the general issue 
applies, regardless of what we think of him. To emphasize the 
uniqueness of the waiver contained in this statute, Congress 
included a nonbinding section expressing the intent that 
Marshall's waiver was to be an exception, quote, ``This Act is 
not to be construed as approval by the Congress of continuing 
appointments of military men to the office of Secretary of 
Defense in the future,'' and--end of quote--and, quote, ``No 
additional appointments of military men to that office shall be 
approved,'' end quote.
    I'm concerned--I think many of us are--that a waiver here 
would set a precedent. I wonder if you have advice to us as to 
how a waiver here can avoid setting precedent. I know, in 
response to one of the questions previously, I think perhaps by 
my colleague Senator Reed, you have emphasized a waiting period 
or a period of time as avoiding the repetition of that 
precedent, but the exception may swallow the rule. My question 
to you is whether there is anything by way of legislative 
intent in what we may have to say about doing a waiver here, or 
perhaps even in the legislative statutory language, whether we 
can assure that, in fact, we are making a very unusual and 
unique exception so as to avoid some of the concerns, the 
general concerns that have been expressed, even if we want to 
move ahead with General Mattis's nomination and confirmation.
    Dr. Cohen. Senator, I'm no expert on draftsmanship of the 
law, but I--you know, I do think it makes sense to put things 
into the text of the law that make it very clear just how 
exceptional you all believe this case is.
    The one other thing which I suggested in my testimony, 
which may or may not be helpful, is that you consider restoring 
the ten year rule and going back from the seven year rule. I 
think that would be, actually--that would send a certain 
message about how seriously Congress takes that. But, that 
would be my only additional thought. I'm not--I'm--and that 
really, obviously, is a matter for you folks to deliberate on.
    Dr. Hicks. I would just add, I think, again, that the very 
narrow way in which the legislation, as I have it in front of 
me at least, is construed is very helpful, and, as you point 
out, the additional language with regard to how exceptional--
and, you know, I think in generational term--people may want to 
use different language, but--generationally exceptional this 
decision would be.
    Senator Blumenthal. I would just point out, it's an obvious 
point, that--the difference between 10 years, 7 years, 3 years, 
15 years--these are all sort of arbitrary time periods. I don't 
know of the fact-based justification for any specific numbers 
of years. It's more the principle that's important. So, I do 
agree that the language is narrow, but I'm just trying to, in 
effect, narrow the intent so that it's clear to future 
Presidents--or this President, for matter--that it is truly an 
exception based on General Mattis's extraordinary 
qualifications and the very extraordinary time in which we 
live.
    Thank you.
    Thanks, Mr. Chairman.
    Chairman McCain. I think Senator Gillibrand has asked for 
another question.
    Senator Gillibrand. No. Thank you, Mr. Chairman.
    Senator Reed. Oh.
    Chairman McCain. No?
    I thank the witnesses.
    I don't know why, Dr. Cohen, I was reminded of--probably 
one of the seminal moments was the firing of Harry Truman, an 
authentication of civilian--the adherence of civilian control 
of the military, since he was the most popular man at the time. 
Truman, in later years, said, ``I didn't fire MacArthur because 
he was an SOB, which he was.'' He said, ``I fired him because 
he was dumb.'' Do you remember that quote? As only Harry Truman 
could have put it. An individual that history treats with much 
more admiration and respect than it did at the time. The more I 
study, the more I appreciate that seminal moment. It took 
enormous courage to dispense with the services of, arguably, 
one of the most popular Americans. It's hard to describe the 
way Americans revered war heroes at that time.
    Would you have any closing comments? Or have you had 
enough?
    [Laughter.]
    Chairman McCain. I thank the witnesses. This has been very 
helpful.
    [Whereupon, at 11:32 a.m., the hearing was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
